                             Office of the Inspector General
                     Corporation for National and Community Service
                                  Report Number 01-05



                           Audit of Corporation for National
                                and Community Service
                       Grant Numbers 94SCSDE008,94ASCDE008,
                             95PDSDEOO8, and 95LCSDE002
                                      Awarded to
                        Delaware Community Service Commission
                                 New Castle, Delaware




                                    Financial Schedules
                                           and
                               Independent Auditor's Reports

                                      For the Period
                             January 14,1994 to March 31,2000




                                          Prepared by
                            Leonard G. Birnbaum a n d Company
                                 Certified Public Accountants
                                    6285 Franconia Road
                                 Alexandria, Virginia 22310
                                         (703) 922-7622


This report was issued to Corporation management on January 11,2001. Under the laws and
regulations governing audit follow up, the Corporation must make final management decisions on
the report's findings and recommendations no later than July 11,2001, and complete its corrective
actions by January 11,2002. Consequently, the reported findings do not necessarily represent the
final resolution of the issues presented.
                                                                                         CORPORATION
                             Office of the Inspector General                             FOR NATIONAL          .

                     Corporation for National and Community Service
                                                                                         USERVICE
              Audit of Corporation for National and Community Service
      Grant Numbers 94SCSDE008,94ASCDE008,95PDSDEOOS,and 95LCSDE002
                                     Awarded to
                      Delaware Community Service Commission
                                New Castle, Delaware
                              OIG Audit Report 01-05

CNS OIG engaged the independent auditing firm, Leonard G. Birnbaum and Company to perform
a program-specific incurred cost audit of Corporation funds awarded to the Delaware Community
Service Commission for the period January 14, 1994 to March 31,2000. The scope of the audit
extended to costs incurred by subgrantees through Commission grants funded by CNS. It included
procedures to determine whether costs reported to the Corporation were documented and allowable
in accordance with laws, regulations, and grant provisions and considered internal control issues
revealed by CNS OIG's pre-audit survey, OIG Report 00-06: Pre-Audit Suwey of the Delaware
Community Service Commission, issued May 18,2000.

The Auditors found both unsupported and unallowable costs and numerous compliance and internal
controls issues. Consequently, their report questions approximately $370 thousand (11 percent) of
the $3.5 million in costs claimed against the grants and contains more than 30 recommendations for
corrective actions and improvement at the Commission and its subgrantees. The report also
recommends that the Corporation follow up to ensure that the corrective actions are appropriately
and effectively implemented.

We have reviewed the report and the work papers supporting its conclusions and agree with the
findings and recommendations presented.

Responses to this report by the Delaware Community Service Commission and the Corporation are
included as Appendices A and B of this report. The DCSC response disagreed with a number of the
findings but reported corrective action for some of them. The Auditors have summarized the
Commission's responses to the individual findings within the report itself.

The Corporation's response contends that the ". . .report generally did not provide sufficient
information related to the findings to allow the Corporation to agree or disagree at this time."
Appendix C includes the Auditor's comments on CNS' response - including CNS' statements
responding to findings that three subgrantees failed to maintain ArneriCorps member documentation
required by the grant provisions, by indicating that 17 of 18 members described in the report as
having missing time sheets were found by CNS staff to be enrolled in the National Service Trust
Fund. CNS OIG agrees with the Auditor's comments. Further, we continue to recommend, as we
have since 1998, that the Corporation emphasize the importance of sufficient documentation for all
hours applied toward earning an education award as well as the importance of proper monitoring and
supervisory review to ensure that time reporting systems are hnctioning properly.

                                                                                    Inspector General
                                                                                    1201 New York Avenue, NW
                                                                                    Washington, DC 20.52.5
                              Office of the Inspector General
                      Corporation for National and Community Service
                    Audit of Delaware Community Service Commission
        Grant Numbers 94SCSDE008,94ASCDE008,95PDSDE008,          and 95LCSDE002

                                                   Table of Contents



REPORT SUMMARY AND HIGHLIGHTS:

        (1)      Summary of Audit Results . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           2

        (2)      Compliance . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   4

        (3)      Internal Control . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   6

        (4)      Purpose and Scope of Audit . . . . . . . . . . . . . . . . . . . . . . . . . . . . .           6

        (5)      Background . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .   7


INDEPENDENT AUDITOR'S REPORT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .                        9


FINANCIAL SCHEDULES:

        Exhibit A - Schedule of Award Costs:
                Administration . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    11

        Exhibit B - Schedule of Award Costs:
                AmeriCorps . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

        Schedule B-1 - Schedule of Award Costs:
              Delaware Center for Educational Technology . . . . . . . . . . . . . . . .                        17

        Schedule B-2 - Schedule of Award Costs:
              Dover Housing Authority . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .             18

        Schedule B-3 - Schedule of Award Costs:
              Perinatal Association of Delaware . . . . . . . . . . . . . . . . . . . . . . . . .               19

        Schedule B-4 - Schedule of Award Costs:
              University of Delaware . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          20

        Exhibit C - Schedule of Award Costs:
                Professional Development and Training (PDAT) . . . . . . . . . . . . . .                        21
                           Oflice of the Inspector General
                   Corporation for National and Community Service
                 Audit of Delaware Community Service Commission
     Grant Numbers 94SCSDE008,94ASCDE008,95PDSDE008,          and 95LCSDE002


                                                                                                                    Page
    Exhibit D - Schedule of Award Costs:
           Learn & Serve . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .               23



INDEPENDENT AUDITOR'S REPORTS ON COMPLIANCE AND
 INTERNAL CONTROLS:

     Independent Auditor's Report on Compliance . . . . . . . . . . . . . . . . . . . . . .                          25

              Finding No. 1 - DCSC established appropriation codes to track
              the Corporation finded and expended amounts; however, the
              appropriation codes are not used to record the amounts by
              program year. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .          26

              Finding No. 2 - DCSC did not perform comparisons of actual vs.
              budgeted expenditures. Accordingly, DCSC was unable to track
              the finded and expended amounts. In addition, the financial
              management system of DCSC was not utilized to produce reports
              by budget line items as stipulated in the grant. . . . . . . . . . . . . . . .
              Finding No. 3 - DCSC did not submit Financial Status Reports
              (FSRs) of Administration, Professional Development and Training
              Funds on a timely basis, as stipulated in ArneriCorps Provision
              No.17 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

              Finding No. 4 - DCSC did not submit Financial Cash Transaction
              Reports (FCTRs) on a timely basis. Our review of FCTRs
              disclosed that 4 out of 25 reports were submitted after the due
              dates . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    29

              Finding No. 5 - Staff timesheets were not maintained by DCSC
              under the Administration Fund, and the Learn & Serve Program . .                                       29

              Finding No. 6 - Financial Status Reports were not submitted on a
              timely basis by Delaware Center for Educational Technology,
              Dover Housing Authority, Perinatal Association of Delaware and
              University of Delaware, as stipulated in ArneriCorps Provision
              No.17 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .        30
                      Ofice of the Inspector General
              Corporation for National and Community Service
            Audit of Delaware Community Service Commission
Grant Numbers 94SCSDE008,94ASCDE008,95PDSDE008,          and 95LCSDE002



     Finding No. 7 - The University of Delaware did not properly utilize
     its financial management system's capabilities resulting in an
     ineffective system . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

     Finding No. 8 - Dover Housing Authority did not maintain
     financial information and data for five years as required by the
     Grant Agreement . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

      Finding No. 9 - Member timesheets were not maintained by
      the Delaware Community Service Commission, Dover Housing
      Authority, Perinatal Association of Delaware and University of
      Delaware. In addition, the staff timesheets were not maintained by
      the Dover Housing Authority. . . . . . . . . . . . . . . . . . . . . . . . . . . . .

      Finding No. 10 - Dover Housing Authority and Perinatal
      Association of Delaware did not maintain Progress Reports for all
      the program years. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

      Finding No. 11 - Delaware Center for Educational Technology,
      Dover Housing Authority, Perinatal Association of Delaware and
      University of Delaware did not maintain documentation regarding
      all Members as required by AmeriCorps Provision No. 15 . . . . . .

      Finding No. 12 - Delaware Center for Educational Technology
      and Perinatal Association of Delaware did not maintain completed
      Member contracts as required by AmeriCorps Provision No.8. . . .

      Finding No. 13 - Written evaluations of each Member's mid-term
      and end-of-term performance evaluations are required by
      AmeriCorps Provision No. 8. Documentation of these evaluations
      was incomplete . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .

      Finding No. 14 - Enrollment and End-of-TermlExit forms were not
      submitted on a timely basis by Delaware Center of Educational
      Technology, Dover Housing Authority, Perinatal Association of
      Delaware and University of Delaware . . . . . . . . . . . . . . . . . . . . . .

      Finding No. 15 - Our testing of the living allowance indicates
      that Dover Housing Authority did not pay the full amount of living
      allowance to five Members for a total amount of $2,979. The
      shortages ranged between $33 1 and $662. . . . . . . . . . . . . . . . . . .
                           Ofice of the Inspector General
                   Corporation for National and Community Service
                 Audit of Delaware Community Service Commission
     Grant Numbers 94SCSDE008,94ASCDE008,95PDSDE008,          and 95LCSDE002


                                                                                                             Pag;e
            Finding No. 16 - Dover Housing Authority did not remit the
            interest earned on grant hnds received as required by ArneriCorps
            Provision No. 27. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .       39


    Independent Auditor's Report on Internal Controls . . . . . . . . . . . . . . . . . .                     41

            Finding No. 1 - DCSC did not reconcile the amounts reported to the
            Corporation on the Financial Status Report with the amounts
            reported to HHS on the Federal Cash Transaction Report. . . . . . .                               42

            Finding No. 2 - DCSC did not record some grantsfamendments
            or the amounts in the accounting system properly. . . . . . . . . . . . .                         43

            Finding No. 3 - DCSC did not properly monitor subrecipients. . . .                                43

            Finding No. 4 - Deficiencies noted in pre-audit survey were
            substantiated. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . .    44


RESPONSES TO REPORT

            Delaware Community Service Commission . . . . . . . . . . . . . . . . . . Appendix A
            Corporation for National and Community Service . . . . . . . . . . . . . Appendix B
            Auditor's Comments on Corporation for National and
               Community Service's Response . . . . . . . . . . . . . . . . . . . . . . . . Appendix C
p
REP T
                               LEONARD     G.     BIRNBAUM           AND        COMPANY,    LLP
                                             CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE

                                                   6285 FRANCONIA ROAD

                                                  ALEXANDRIA, VA   22310-2510
                                                            -

                                                        (703) 922-7622

                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                            WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                       SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                             LOS ALTOS. CALIFORNIA
CAROL A   SCHNEIDER                                                                                      SAN DIEGO. CALIFORNIA


MEMBERS OF THE
AMERICAN INSTITUTE
    O F CPA'S




          Inspector General
          Corporation for National Service


          This report is issued under an engagement to audit the costs claimed by Delaware Community
          Service Commission (DCSC) and its subrecipients from January 14, 1994 through March 3 1,
          2000. This report focuses on the audit of claimed costs, instances of noncompliance with Federal
          laws, applicable regulations or award conditions, and internal control weaknesses disclosed during
          the audit at DCSC and its subrecipients. Our audit of DCSC covered the following fhnds
          awarded by the Corporation for National Service (Corporation):

             Program             Award Number                Award Period                        Audit Period
          Administration         94SCSDE008              Jan 14,94 - Dec 31,OO             Jan 14, 94 - Mar 3 1,00
          AmeriCorps             94ASCDE008              Aug1,94-Dec30,OO                  Aug1,94-Mar31,OO
          PDAT                   95PDSDEOO8              Jan 1, 95 - Feb 28, 00            Jan 1, 95 - Mar 3 1, 00
          Learn & Serve          95LCSDE002              Oct 1, 95 - Dec 31,OO             Oct 1, 95 -Mar31, 00

          Our audit of the costs claimed by DCSC for the awards referenced above disclosed the following:

          Administration
                                                                                               Percentage
                                     Period                         Amount                   of Total Award
          Award Budget             1/94 - 12/00                    $ 896,053                         -
          Claimed Costs            1/94 - 3/00                       737,529                       82%
          Questioned Costs         1/94 - 3/00                        32,836                        4%

          AmeriCorps
                                                                                                Percentage
                                     Period                         Amount                   of Total Award
          Award Budget             8/94 - 12/00                    $2,909,344                        -
          Claimed Costs            8/94 - 3/00                      2,388,630                      82%
          Questioned Costs         8/94 - 3/00                        306,123                      13%



                      MEMBER   OF THE DIVISION FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE          SECTION
                                  AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
PDAT
                                                                                 Percentage
                         Period                     Amount                    of Total Award
Award Budget           1/95 - 2/00                 $ 277,735                          -
Claimed Costs          1/95 - 3/00                      193,716                     70%
Questioned Costs       1/95 - 3/00                          282                     <1%

Learn & Serve
                                                                                  Percentage
                         Period                        Amount                  of Total Award
Award Budget           10195 - 12/00               $ 194,497                           -
Claimed Costs          10195 - 3/00                     133,354                      69%
Questioned Costs       10195 - 3/00                      30,411                      23%


                                SUMMARY OF AUDIT RESULTS

As a result of our audit of the aforementioned awards, we are questioning costs as summarized below
and detailed in Exhibits A through D to the Independent Auditor's report. Questioned costs are costs
for which there is documentation that the recorded costs were expended in violation of the law,
regulations or specific conditions of the award, or those costs which require additional support by the
grantee or require interpretation of allowability by the Corporation.

The following summarizes the costs questioned on these awards by reason:

                Explanation                                        CNS Funds1          Exhibit
Adn~inistration
-     Undocumented labor costs claimed by DCSC                     $    31,618             A

-       Undocumented contract service and travel
          costs claimed by DCSC

An~eriCorps
-     Overcharge to health care by Delaware Center
         for Educational Technology

-       Undocumented living allowances claimed by
          Dover Housing Authority                                      109,862             B

-       Undocumented other Member costs claimed by
          Dover Housing Authority                                        7,559             B


        'We have not questioned any matching costs.


                                                   2
-       Undocumented labor costs claimed by Dover
          Housing Authority

-       Undocumented operational costs claimed by
          Dover Housing Authority

-       Undocumented other Member costs claimed by
          Perinatal Association of Delaware

-       Undocumented operational costs claimed by
          Perinatal Association of Delaware

-       Undocumented internal evaluation costs claimed
          by Perinatal Association of Delaware

-       Administration costs in excess of grant ceiling

PDA T
-       Travel costs ($53) reclassified to contract services

-       Travel costs in excess of amounts allowed under
           Federal Travel Regulations                                   282           C

Learn & Serve
-       Undocumented labor costs claimed by DCSC

-       Undocumented contract service claimed by
          subrecipients                                             22.597            D

        Total Questioned Costs                                  $ 369.652

We used a random sampling method to test the costs claimed. Based upon this sampling plan,
questioned costs in this report may not represent total costs that may have been questioned had all
expenditures been tested. In addition, we have made no attempt to project such costs to total
expenditures incurred, based on the relationship of costs tested to total costs. For a complete
discussion of these questioned costs, refer to the Independent Auditor's Report.
                                        COMPLIANCE

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

-     DCSC established appropriation codes to track the Corporation hnded and expended
      amounts; however, the appropriation codes are not used to record the amounts by program
      year. Instead, the appropriation amounts remain valid until the entire amount of hnding has
      been expended. As such, we were unable to determine if the amounts were incurred during
      the grant period during our testing of claimed costs. This caused DCSC to have substantially
      more carryover funds, especially under the AmeriCorps Program (94ASCDE008), than has
      been reported to the Corporation. Based on our calculations, we determined that DCSC has
      approximately $357,000 (this amount does not take into consideration, the amounts incurred
      but not paid to the University of Delaware) more in carryover h n d s at the end of program
      year 98/99 than was reported to the Corporation. (Independent Auditor's Report on
      Compliance, Finding No. 1)

-      DCSC did not perform comparisons of actual vs. budgeted expenditures. Accordingly, DCSC
       was unable to track the fimded and expended amounts. In addition, the financial management
       system ofDCSC was not utilized to produce reports by budget line items as stipulated in the
       grant. (Independent Auditor's Report on Compliance, Finding No. 2)

-      DCSC did not submit Financial Status Reports (FSRs) of Administration, Professional
       Development and Training Funds on a timely basis, as stipulated in AmeriCorps Provision No.
       17. (Independent Auditor's Report on Compliance, Finding No. 3)

-      DCSC did not submit Financial Cash Transaction Reports (FCTRs) on a timely basis. Our
       review of FCTRs disclosed that 4 out of 25 reports were submitted after the due dates.
       (Independent Auditor's Report on Compliance, Finding No. 4)

-      Staff timesheets were not maintained by DCSC under the Administration Fund, and the Learn
       & Serve Program. (Independent Auditor's Report on Compliance, Finding No. 5)

       Financial Status Reports were not submitted on a timely basis by Delaware Center for
       Educational Technology, Dover Housing Authority, Perinatal Association of Delaware and
       University of Delaware, as stipulated in AmeriCorps Provision No. 17. (Independent
       Auditor's Report on Compliance, Finding No. 6)

-      The University of Delaware did not properly utilize its financial management system's
       capabilities resulting in an ineffective system. (Independent Auditor's Report on Compliance,
       Finding No. 7)
-       Dover Housing Authority did not maintain financial information and data for five years as
        required by the Grant Agreement. (Independent Auditor's Report on Compliance, Finding
        No. 8)

-       Member timesheets were not maintained by the Delaware Community Service Commission,
        Dover Housing Authority, Perinatal Association of Delaware and University of Delaware.
        In addition, the staff timesheets were not maintained by the Dover Housing Authority.
        (Independent Auditor's Report on Compliance, Finding No. 9)

-       Dover Housing Authority and Perinatal Association of Delaware did not maintain Progress
        Reports for all the program years. Delaware Center for Educational Technology did not
        indicate the submission dates on the Progress Reports as required. AmeriCorps Provision No.
        17 stipulates that Progress Reports are to be submitted within 30 days after the end of the
        reporting period. Our testing disclosed that University of Delaware did not submit one
        progress report on a timely basis and five reports did not include submission dates.
        (Independent Auditor's Report on Compliance, Finding No. 10)

-       Delaware Center for Educational Technology, Dover Housing Authority, Perinatal
        Association of Delaware and University of Delaware did not maintain documentation
        regarding all Members as required by AmeriCorps Provision No. 15. (Independent Auditor's
        Report on Compliance, Finding No. 11)

-       Delaware Center for Educational Technology and Perinatal Association of Delaware did not
        maintain completed Member contracts as required by AmeriCorps Provision No.8.
        (Independent Auditor's Report on Compliance, Finding No. 12)

-       Written evaluations of each Member's mid-term and end-of-term performance evaluations are
        required by AmeriCorps Provision No.8. Documentation of these evaluations was
        incomplete. (Independent Auditor's Report on Compliance, Finding No. 13)

-       Enrollment and End-of-TermExit forms were not submitted on a timely basis by Delaware
        Center of Educational Technology, Dover Housing Authority, Perinatal Association of
        Delaware and University of Delaware. (Independent Auditor's Report on Compliance,
        Finding No. 14)

    -   Our testing of the living allowance indicates that Dover Housing Authority did not pay the
        full amount of living allowance to five Members for a total amount of $2,979. The shortages
        ranged between $33 1 and $662. (Independent Auditor's Report on Compliance, Finding
        No. 15)

    -   Dover Housing Authority did not remit the interest earned as required by AmeriCorps
        Provision No. 27. (Independent Auditor's Report on Compliance, Finding No. 16)
                                   INTERNAL CONTROLS

Our audit disclosed the following weaknesses in DCSCYsinternal controls:

-      DCSC did not reconcile the amounts reported to the Corporation on the Financial Status
       Report with the amounts reported to HHS on the Federal Cash Transaction Report.
       (Independent Auditor's Report on Internal Controls, Finding No. 1)

-      DCSC did not record some grantslamendments or the amounts in the accounting system
       properly. (Independent Auditor's Report on Internal Controls, Finding No. 2)

-      DCSC did not properly monitor subrecipients. (Independent Auditor's Report on Internal
       Controls, Finding No. 3)

       Deficiencies noted in pre-audit survey (OIG Audit Report No. 00-06, Pre-Audit Survey
       Report of the Delaware Community Service Commission) were substantiated. (Independent
       Auditor's Report on Internal Controls, Finding No.4)


                             PURPOSE AND SCOPE OF AUDIT

Our audit covered the costs claimed under Grant Nos. 94SCSDE008,94ASCDE008, 95PD SDE008,
and 95LCSDE002 as previously described. The objectives of our audit were to determine whether:

       1.     Financial reports prepared by DCSC presented fairly the financial condition of the
              award;

       2.      The internal controls were adequate to safeguard Federal funds;

       3.     DCSC and the subrecipients had adequate procedures and controls to ensure
              compliance with Federal laws, applicable regulations, award conditions and that
              Member services were appropriate to the programs;

       4.      The award costs reported to the Corporation were documented and allowable in
               accordance with the award terms and conditions; and

       5.      DCSC has established adequate oversight and informed subrecipients of the
               Corporation's GPRA goals.

We performed the audit in accordance with generally accepted auditing standards, and Government
Auditing Standirrd (1994 Revision) issued by the Comptroller General of the United States. Those
standards required that we plan and perform the audit to obtain reasonable assurance about whether
the amounts claimed against the award, as presented in the schedules of award costs (Exhibits A
through D), are free of material misstatement. An audit includes examining, on a test basis, evidence
supporting the amounts and disclosures in Exhibits A through D. An audit also includes assessing
the accounting principles used and significant estimates made by the auditee, as well as evaluating the
overall financial schedule presentation. Our audit included reviews of audit reports and working
papers prepared by the independent public accountants for the state commission and its subrecipients
in accordance with the requirements of OMB Circular A-133. Our audit also included a follow up
on the Pre-Award Survey Report of DCSC dated October 8, 1999 (CNS OIG Report 00-06). We
believe our audit provides a reasonable basis for our opinion.

The contents of this draft report were disclosed to and discussed with DCSC at an exit conference
on November 2, 2000. In addition, we provided a draft of this report to DCSC and to the
Corporation for comment on November 21,2000 and received responses from both DCSC and the
Corporation on December 21, 2000. In its response (included in this report as Appendix A) DCSC
disagreed with many of the findings, but reported corrective actions for some of them. DCSC's
responses to specific findings and the auditor's analysis of them are also included within the body of
this final report. In its response (Appendix B) the Corporation either agreed with the report's
findings or expressed the view that insufficient details were presented in the report. The auditor's
analysis of CNS' comments is included as Appendix C.

Both DCSC and the Corporation indicated in their responses that they had requested access to, and
will request additional access to, the auditor's workpapers in order to resolve the findings in this
report. CNS OIG policy provides for access on a limited basis to resolve specific questions. We have
communicated this to both DCSC and the Corporation. On December 7, 2000, CNS OIG provided
information from the workpapers to the Corporation in answer to questions from the Corporation's
Deputy Chief Financial Oficer. On December 18, 2000, CNS OIG provided information from the
workpapers to DCSC. Further requests for information from or access to the workpapers must be
coordinated with CNS OIG.


                                          BACKGROUND

The Corporation for National and Community Service, pursuant to the authority of the National and
Community Service Act, as amended, awards grants and cooperative agreements to state
commissions, and other entities to assist in the creation of full and part time national and community
service programs.

DCSC has received approximately $4.5 million in finding from the Corporation since 1995, including
AmeriCorps formula funds, AmeriCorps competitive finds, Learn and Serve fbnds, PDAT funds,
Promise Fellowship finds and Administration finds. Of this amount, approximately $3.4 million was
distributed to subgrantees. The majority of DCSC's subgrantees are state agencies.
                                     REPORT RELEASE

This report is intended for the information and use of the Corporation's Ofice of the Inspector
General, as well as the management ofthe Corporation, DCSC, and its subrecipients. However, this
report is a matter of public record and its distribution is not limited.
                           LEONARD         G.   BIRNBAUM             AND       COMPANY,    LLP
                                            CERTIFIED   PUBLIC ACCOUNTANTS
                                                   WASHINGTON OFFICE

                                                  6285 FRANCONIA ROAD

                                                 ALEXANDRIA. VA   22310-2510
                                                            -
                                                        (703) 922-7622

                                                    FAX: (703) 922-8256

LESLIE A LEIPER                                                                                            WASHINGTON. D.C
LEONARD G. BIRNBAUM                                                                                    SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                          LOS ALTOS, CALIFORNIA
CAROL A. SCHNEIDER                                                                                    SAN DIEGO, CALIFORNIA


MEMBERS OF THE
AMERICAN INSTITUTE
    OF CPA'S




        Inspector General
        Corporation for National Service

                                        INDEPENDENT AUDITOR'S REPORT

         We have audited the costs incurred by the Delaware Community Service Commission for the award
         numbers listed below. These costs, as presented in the schedules of award costs (Exhibits A through
         D), are the responsibility of the Delaware Community Service Commission's (DCSC) management.
         Our responsibility is to express an opinion on Exhibits A through D based on our audit.

            Program              Award Number                Award Period                     Audit Period
         Administration          94SCSDEOO8              Jan 14,94 - Dec 3 1,00           Jan 14,94 - Mar 3 1,00
         AmeriCorps              94ASCDE008              Aug 1,94 - Dec 30,OO             Aug 1,94 - Mar 31,OO
         PDAT                    95PDSDE008              Jan 1,95 - Feb 28,OO             Jan 1,95 - Mar 31,OO
         Learn & Serve           95LCSDE002              Oct 1,95 - Dec 3 1,00            Oct 1,95 - Mar 3 1,00

         We conducted our audit in accordance with generally accepted auditing standards, and Governmeni
         Auditirig Standards (1994 Revision), issued by the Comptroller General of the United States. Those
         standards require that we plan and perform the audit to obtain reasonable assurance about whether
         the financial schedules are free of material misstatement. An audit includes examining, on a test basis,
         evidence supporting the amounts and disclosures in the financial schedules. An audit also includes
         assessing the accounting principles used and significant estimates made by management, as well as
         evaluating the overall financial schedule presentation. We believe our audit provides a reasonable
         basis for our opinion.

         In our opinion, except for $369,652 in questioned costs, the schedules of award costs (Exhibits A
         through D) referred to above present fairly, in all material respects, the costs claimed for the period
         January 1, 1994 to March 3 1, 2000, in conformity with the award agreements.




                      MEMBER   OF THE DIVISION FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE         SECTION
                                  AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service

This report is intended for the information and use of the Corporation's Ofice of the Inspector
General, as well as management of the Corporation and the Delaware Community Service
Commission and its subrecipients. However, this report is a matter of public record and its
distribution is not limited.


                                           Leonard G. Birnbaum and Company



Alexandria, Virginia
September 7, 2000
                                                                             Exhibit A
                                                                            Page 1 of 2
                         Delaware Community Service Commission
                                  Schedule of Award Costs




-
         Corporation for National Service Award No. 94SCSDE008 (Administration)
                         From January 14, 1994 to March 3 1, 2000
                                          (Note 1)

                                    Approved    Claimed    Questioned
                                   B u d g e t C o s t s C o s t s N o t e s
Salaries and Benefits              $ 521,171 $ 324,456     $ 31,618      2

Contract Services

Travel

Supplies/Materials

Other Direct Costs

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS
                                                                                      Exhibit A
                                                                                     Page 2 of 2

                          Delaware Community Service Commission
          Corporation for National Service Award No. 94SCSDE008 (Administration)


                                       Notes to Exhibit A


1.     This exhibit presents amounts budgeted, claimed, and questioned under the Corporation for
       National Service award number 94SCSDE008 for Administration.

2.     Questioned costs represent labor amounts claimed under this grant for which no time sheets
       were maintained, nor was there any detailed information to verify whether staff maintained
       their time properly.

3.     Questioned costs represent amounts claimed under this grant for which documentation was
       not available.

Delaware Community Service Commission's Comments

DCSC disagrees with the costs questioned in Note 1 because the State of Delaware does not require
timesheets for other than seasonal casual (contractual) employees. DCSC disagrees with the costs
questioned in Note 2 because (1) it now has documents supporting contract services questioned of
$1,206, and (2) it does not have documentation to substantiate the $12 of travel costs questioned.

Auditor's Response

Notwithstanding the requirements of the State of Delaware with respect to timekeeping practices,
AmeriCorps Provision No. 23 provides that "salaries and wages charged directly to the Grant or
charged to matching h n d s must be supported by signed time and attendance records for each
employee regardless of position." Similarly, until we have been provided an opportunity to review
the documentation in support of questioned contract services, our position on these costs remains
unchanged. CNS' Office of Grants Management is responsible for evaluating documents that DCSC
has now found, but that were not available at the time of our audit.
                                                                             Exhibit B
                                                                           Page 1 of 4
                        Delaware Community Service Commission
                                 Schedule of Award Costs




-
         Corporation for National Service Award No. 94ASCDE008 (AmeriCorps)
                         From October 1, 1994 to March 3 1, 2000
                                         (Note 1)

                                   Approved      Claimed      Questioned
                                 Budeet--                                     Notes
Member Support Costs:
  Living Allowance               $1,183,829     $1,100,122    $ 109,862         2
  FICA & Workers Comp.               151,303        134,199         -
  Health Care                    119.69061.186196                               3
Subtotal                           1,454,822     1,295,507      110,058

Other Member Costs:
  Training & Education               141,584        75,43 1        6,825        2
  Uniforms                             5,280         5,699         1,980        4
  Other                               32,396        17.484         3,720        5
Subtotal                             179,260        98,614        12,525

Staff:
  Salaries                                                                      6
  Benefits
  Training
  Other
Subtotal

Operational:                         282,203       142,132       58,172         7

Internal Evaluation:                  29,586        21,950         2,500        8

Administration:                      126,18Q        8 1.728       17.233       9,11

CORPORATION FUNDS                  2,909,344      2,388,630      306,123

MATCHING FUNDS                      1,671,778     1,940,403          -         10,ll

TOTAL FUNDS                       $4.581.122$4.329.033-
                                                                                   Exhibit B
                                                                                 Page 2 of 4

                   Delaware Community Service Commission
    Corporation for National Service Award No. 94ASCDE008 (AmeriCorps)


                                Notes to Exhibit B


This exhibit presents amounts budgeted, claimed, and questioned under the Corporation for
National Service award number 94ASCDE008 for AmeriCorps. For details by subrecipient,
please refer to Schedules B-1 through B-4.

Questioned costs represent amounts claimed by the Dover Housing Authority for which
documentation was not available (Schedule B-2).

Delaware Center for Educational Technology overcharged health care in the amount of $196
which the subrecipient elected to correct by charging it to matching funds. We consider this
appropriate (Schedule B-1).

Questioned costs represent $514 claimed by the Dover Housing Authority (Schedule B-2) and
$1,466 claimed by the Perinatal Association of Delaware (Schedule B-3) for which
documentation was not available.

Questioned costs represent $220 claimed by the Dover Housing Authority (Schedule B-2) and
$3,500 claimed by the Perinatal Association of Delaware (Schedule B-3) for which
documentation was not available.

Questioned costs represent labor amounts claimed by the Dover Housing Authority for which
no time sheets were maintained, nor was there any detailed information to verifL whether staff
maintained their time properly (Schedule B-2).

Questioned costs represent $5,103 of operational costs claimed by the Dover Housing
Authority (Schedule B-2) and $53,069 of operational costs claimed by the Perinatal
Association of Delaware (Schedule B-3) for which documentation was not available.

Questioned costs represent amounts claimed by the Perinatal Association of Delaware for
which documentation was not available (Schedule B-3).
                                                                                         Exhibit B
                                                                                        Page 3 of 4

                          Delaware Community Service Commission
           Corporation for National Service Award No. 94ASCDE008 (AmeriCorps)


                                        Notes to Exhibit B


9.     Questioned costs represent the amount of administration costs claimed by the Perinatal
       Association of Delaware (Schedule B-3) in excess of the ceiling specified in the grant of five
       percent of total costs, including administration.

10.    While the audit disclosed a questioned amount of $9,646 in matching h n d s claimed by
       Perinatal Association of Delaware (Schedule B-3) for which documentation was not available,
       as well as, $196 which was charged to matching f h d s for the Delaware Center for
       Educational Technology (Schedule B-1) as discussed in Note 3, the aggregate of these is not
       presented as questioned costs because matching costs incurred significantly exceeded the
       amount budgeted.

11.    Absent supporting documentation we could not determine the amount of administration costs
       incurred, as well as the amount of f h d s matched by the Dover Housing Authority (Schedule
       B-2).

Delaware Community Service Commission's Comments re: Dover Housing Authority

DCSC disagrees with the costs questioned related to Dover Housing Authority (aggregate -
$228,159) because it has been able to locate documentation which reportedly evidences
programmatic activity during the operation of the AmeriCorps program, together with some financial
documentation. DCSC also is attempting to identify questioned costs with greater specificity.

Auditor's Response

First, the question of whether evidence of programmatic activity is sufficient to offset costs
questioned due to inadequate supporting financial records or transactional data requires a
determination by the Grants Oficer. Second, since we have not been provided any of the financial
documents which have been located, we are not in a position to determine whether such documents
relate to the costs questioned. Accordingly, the costs questioned, as originally presented, remain
unchanged.
                                                                                       Exhibit B
                                                                                      Page 4 of 4

                          Delaware Community Service Commission
           Corporation for National Service Award No. 94ASCDE008 (ArneriCorps)


                                       Notes to Exhibit B


Delaware Communitv Service Commission's Comments re: Perinatal Association of Delaware

DCSC disagrees with the costs questioned related to Perinatal Association of Delaware (aggregate -
$87,414) for essentially the same reasons as those related to Dover Housing Authority.

Auditor's Response

Please refer to the response to comments related to Dover Housing Authority. The costs questioned,
as originally presented, remain unchanged.
                                                                             Schedule B-1

                         Delaware Community Service Commission
          Corporation for National Service Award No. 94ASCDE008 (AmeriCorps)
                        Delaware Center for Educational Technology
                                  Schedule of Award Costs
                        From September 1, 1996 to March, 3 1, 2000

                                  Approved Claimed              Questioned
                                  Budget--

Member Support Costs:
       Living Allowance           $   316,487    $    324,758   $      -
       FICA & Workers Comp.            42,133          28,302          -
       Health Care                     43,546    21.575               194
Subtotal                              402,166         374,635         196

Other Member Costs:
       Training & Education            29,811           6,710          -
       Uniforms                         -                 813          -
       Other                       23.478        12.718                -
Subtotal                               53,289          20,241          -


Staff:
       Salaries
       Benefits
       Training
       Other
Subtotal

Operational:                           50,733          17,367          -

Internal Evaluation:                    6,480           3,000          -

Administration:                         7.00Q             -            -
CORPORATION FUNDS                     74 1,004        606,819          196

MATCHING FUNDS                        587,042        1,126,4a        (194)

TOTAL FUNDS
                                                                           Schedule B-2

                         Delaware Community Service Commission
          Corporation for National Service Award No. 94ASCDE008 (AmeriCorps)
                                 Dover Housing Authority
                                  Schedule of Award Costs
                        From October 1, 1994 to November 30,1996

                                    Approved     Claimed      Questioned
                                  Budget--
Member Support Costs:
       Living Allowance
       FICA & Workers Comp.
       Health Care
Subtotal

Other Member Costs:
       Training & Education
       Uniforms
       Other
Subtotal

Staff:
       Salaries
       Benefits
       Training
       Other
Subtotal

Operational :

Internal Evaluation:

Administration:

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS
                                                                           Schedule B-3

                         Delaware Community Service Commission
          Corporation for National Service Award No. 94ASCDE008 (AmeriCorps)
                             Perinatal Association of Delaware
                                  Schedule of Award Costs
                       From October 1, 1995 to September 30, 1999

                                  Approved Claimed            Questioned
                                  Budget--

Member Support Costs:
       Living Allowance
       FICA & Workers Comp.
       Health Care
Subtotal

Other Member Costs:
       Training & Education
       Uniforms
       Other
Subtotal

Staff:
       Salaries
       Benefits
       Training
       Other
Subtotal

Operational:

Internal Evaluation:

Administration:

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS
                                                                           Schedule B-4

                         Delaware Community Service Commission
          Corporation for National Service Award No. 94ASCDE008 (AmeriCorps)
                                   University of Delaware
                                  Schedule of Award Costs
                        From November 1, 1996 to March 3 1, 2000

                                  Approved Claimed            Questioned
                                  Budget=-

Member Support Costs:
       Living Allowance
       FICA & Workers Comp.
       Health Care
Subtotal

Other Member Costs:
       Training & Education
       Uniforms
       Other
Subtotal

Staff:
       Salaries
       Benefits
       Training
       Other
Subtotal

Operational:

Internal Evaluation:

Administration:

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS
                                                                            Exhibit C
                                                                           Page 1 of 2
                        Delaware Community Service Commission
                                 Schedule of Award Costs
 Corporation for National Service Award No. 95PDSDE008 (Professional Development and




-
                                        Training)
                         From January 1, 1995 to March 3 1, 2000
                                        (Note 1)

                                   Approved Claimed           Questioned
                                   Budget--                                 Notes

Salaries

Contract Services                                                             2

Travel                                                                        3

SuppliesIMaterials

Other Direct Costs                                                            4

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS
                                                                                           Exhibit C
                                                                                          Page 2 of 2

                          Delaware Community Service Commission
                   Corporation for National Service Award No. 95PDSDE008
                            (Professional Development and Training)


                                         Notes to Exhibit C


1.     This exhibit presents amounts budgeted, claimed, and questioned under the Corporation for
       National Service award number 95PDSDE008 for Professional Development and Training.

2.     Questioned costs represent $53 in travel expenses improperly classified as contract services.

3.     Questioned costs represent $282 in per diem costs claimed in excess of amounts allowed
       under federal travel regulations, as well as, a $53 charge to travel as discussed in Note 2.

Delaware Community Service Commission's Comments

DCSC disagrees with the costs questioned because (1) it does not have the details related to $53 of
questioned costs related to contract services, (2) travel costs are thoroughly reviewed by State and
Commission fiscal agents, and (3) the equipment costs questioned falls within an allowable 10%
budget line item adjustment.

Auditor's Res~onse

Paragraph 41.b of Attachment B to OMB Circular A-87, with respect to lodging and subsistence,
requires use of a written governmental policy or, absent such a policy, the use of Federal Travel
Regulations. Since the details related to these questioned costs were provided to DCSC and since
DCSC7sresponse did not demonstrate that the claimed costs were in accordance with a written
governmental policy, the costs questioned, as originally presented, remain unchanged. We have
eliminated the amount questioned as equipment cost, not because it is within a permissible budget
variation, but because it is below the threshold for required approval articulated in 921 of Attachment
B to OMB Circular A-87.
                                                                              Exhibit D
                                                                             Page 1 of 2
                          Delaware Community Service Commission
                                   Schedule of Award Costs




-
         Corporation for National Service Award No. 95LCSDE002 (Learn and Serve)
                          From October 1, 1995 to March 3 1, 2000
                                           (Note 1)

                                     Approved Claimed           Questioned
                                     Budget--                                 Notes
Salaries and Benefits                                                              2

Contract Services                                                                  3

Travel

SuppliesIMaterials

Other Direct Costs

CORPORATION FUNDS

MATCHING FUNDS

TOTAL FUNDS
                                                                                  Exhibit D
                                                                                  Page 2 of 2

                          Delaware Community Service Commission
         Corporation for National Service Award No. 95LCSDE002 (Learn and Serve)


                                       Notes to Exhibit D


1.     This exhibit presents amounts budgeted, claimed, and questioned under the Corporation for
       National Service award number 95LCSDE002 for Learn and Serve. The original award, and
       amendments to it, arrayed costs by function (e.g. meetings, workshops, etc.) rather than by
       category of costs, while the state commission accumulated costs in more traditional cost
       categories (e.g. salaries, travel, contract services, etc.).

2.     Questioned costs represent labor amounts claimed under this grant for which no time sheets
       were maintained, nor was there any detailed information to verifjr whether staff maintained
       their time properly.

3.     Questioned costs represent amounts claimed by subrecipients under this grant for which
       documentation was not available.

Delaware Communitv Service Commission's Comments

DCSC disagrees with the salaries and benefits questioned because of its timekeeping practices as
articulated in response to similar costs questioned on Exhibit A. DCSC disagrees with the contract
services questioned for the same reason and requested workpapers to identi@ the specific costs
questioned.

Auditor's Response

Our response to the comment on salaries and benefits questioned is the same as our response to the
comment on similar costs questioned on Exhibit A. Accordingly, the costs questioned, as originally
presented, remain unchanged. Contract services were questioned simply because DCSC could not
provide any documentation to support the costs. Accordingly, the costs questioned, as originally
presented, remain unchanged.
                             LEONARD         G.   BIRNBAUM             AND       COMPANY,   LLP
                                              CERTIFIED   PUBLIC ACCOUNTANTS
                                                     WASHINGTON OFFICE

                                                    6285 FRANCONIA ROAD

                                                  ALEXANDRIA. VA    22310-2510



                                                          (703) 922-7622

                                                      FAX: (703) 922-8256

LESLIE A. LEIPER                                                                                            WASHINGTON. D.C.
LEONARD G   BIRNBAUM                                                                                    SUMMIT, NEW JERSEY
DAVID SAKOFS                                                                                            LOS ALTOS, CALIFORNIA
CAROL A. SCHNEIDER                                                                                     SAN DIEGO, CALIFORNIA


MEMBERS OF THE
AMERICAN INSTITUTE
     OF CPA'S




         Inspector General
         Corporation for National Service

                             INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE

         We have audited the schedules of award costs, as presented in Exhibits A through D, which
         summarize the claimed costs of the Delaware Community Service Commission (DCSC) under the
         Corporation for National Service (Corporation) awards listed below, and have issued our report
         thereon dated September 7,2000.

            Program               Award Number                   Award Period                    Audit Period
         Administration           94SCSDE008                 Jan 14,94 - Dec 3 1,00         Jan 14,94 -Mar 31, 00
         ArneriCorps              94ASCDE008                 Aug 1,94 - Dec 30,OO           Aug 1,94 -Mar 31,OO
         PDAT                     95PDSDE008                 Jan 1, 95 - Feb 28, 00         Jan 1, 95 -Mar31, 00
         Learn & Serve            95LCSDE002                 Oct 1, 95 - Dec 31, 00         Oct 1, 95 -Mar31, 00

         We conducted our audit in accordance with generally accepted auditing standards, and Govertiniettt
         Atlditing Standarch (1994 Revision), issued by the Comptroller General of the United States. Those
         standards require that we plan and perform the audit to obtain reasonable assurance about whether
         the financial schedules are free of material misstatement.

         Compliance with laws, regulations, and the provisions of the awards is the responsibility of DCSC's
         management. As part of obtaining reasonable assurance about whether the financial schedules are
         free of material misstatement, we performed tests of compliance with certain provisions of laws,
         regulations, and the terms and conditions of the awards. However, our objective was not to provide
         an opinion on overall compliance with such provisions.




                       MEMBER OF THE DIVISION   FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE         SECTION
                                  AMERICAN   INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service
Instances of noncompliance are failures to follow requirements, or violations of prohibitions,
contained in statutes, regulations, and the provisions of the award. The results of our tests of
compliance disclosed the following instances of noncompliance:

Findinn No. 1

DCSC established appropriation codes to track the Corporation funded and expended amounts;
however, the appropriation codes are not used to record the amounts by program year. Instead, the
appropriation amounts remain valid until the entire amount of hnding has been expended. As such,
we were unable to determine if the amounts were incurred during the grant period during our testing
of claimed costs. This caused DCSC to have substantially more carryover funds, especially under the
AmeriCorps Program (94ASCDE008), than has been reported to the Corporation. Based on our
calculations, we determined that DCSC has approximately $357,000 (this amount does not take into
consideration, the amounts incurred but not paid to the University of Delaware) more in carryover
funds at the end of program year 98/99 than was reported to the Corporation.

Recommendation

We recommend that DCSC establish policies and procedures to utilize the appropriation codes for
tracking the funded and expended amount by program year.

Delaware Communitv Service Commission's Comments

DCSC's comments assert that it complies with federal mandates and, when appropriate, carryover
funds were reported to the Corporation.

Auditor's Response

The audit disclosed significant unreported carryover fbnds which DCSC has not acknowledged.
DCSC may have, since this weakness was identified, instituted remedial controls. Since DCSC has
not identified corrective action, we are not in a position to comment on their adequacy.

Finding No.2

DCSC did not perform comparisons of actual vs. budgeted expenditures. Accordingly, DCSC was
unable to track the funded and expended amounts. In addition, the financial management system of
DCSC was not utilized to produce reports by budget line items as stipulated in the grant.
Inspector General
Corporation for National Service
Recommendation

We recommend that DCSC establish policies and procedures to ensure that comparisons of actual
vs. budget expenditures be performed periodically. In addition, procedures should be established to
enable DCSC to perform these comparisons by budget line item.

Delaware Community Service Commission's Comments

DCSC has stated that is has implemented procedures to track expenditures against budgets by line
item.

Auditor's Response

DCSC7sindicated remedial procedures are considered adequate. DCSC and CNS7Office of Grants
Management should evaluate their implementation to determine that the corrective actions have been
effectively implemented.

Finding No.3

DCSC did not submit Financial Status Report (FSRs) of Administration, Professional Development
and Training Funds on a timely basis. ArneriCorps Provision No. 17 stipulates that the FSRs are to
be submitted within 30 days after the end of the reporting period. 26 of the FSRs were submitted
after due dates as follows:

Project No.                   Ouarter Ended                         Days Late
2695                      December 3 1, 1994                           25
                          December 3 1, 1995                           50
                          March 3 1, 1996                                7
                          June 30, 1996                                27

                          March 3 1, 1994
                          September 30, 1994
                          December 3 1, 1994
                          March 3 1, 1996

                          June 30, 1995
                          December 3 1, 1995
                          March 3 1, 1996
Inspector General
Corporation for National Service
23 94/239512396          June 30, 1996                                  27
                         September 30, 1996                            105
                         December 3 1, 1996                            123

2394123951239612397      March 3 1, 1997
                         June 30, 1997
                         September 30, 1997

                         June 30, 1998
                         September 30, 1998
                         December 3 1, 1998

                         June 30, 1996
                         September 30, 1996
                         December 3 1, 1996
                         March 3 1, 1997
                         June 30, 1997
                         September 30, 1997

Of the 59 FSRs, 10 reports were not available for review and 3 did not include submission dates. In
addition, some of the FSRs were completed improperly.

Recommendation

We recommend that DCSC establish and implement policies and procedures to ensure that FSRs are
submitted on a timely basis, and are properly completed prior to submission.

Delaware Communitv Service Commission's Comments

DCSC has stated that it has implemented procedures to ensure that Financial Status Reports are
submitted on a timely basis.

Auditor's Response

DCSC's indicated remedial procedures are considered adequate. DCSC and CNS' Oflice of Grants
Management should evaluate their implementation to determine that the corrective actions have been
effectively implemented.
Inspector General
Corporation for National Service
Finding: No. 4

DCSC did not submit Federal Cash Transaction Reports (FCTRs) on a timely basis. Our review of
FCTRs disclosed that 4 out of 25 reports were submitted after the due dates.

Recommendation

We recommend that DCSC establish policies and procedures to ensure that the FCTRs are submitted
on a timely basis.

Delaware Communitv Service Commission's Comments

DCSC has stated that it will implement procedures to ensure that Federal Cash Transaction Reports
are submitted on a timely basis.

Auditor's Response

DCSC's indicated remedial procedures are considered adequate. DCSC and CNS' Ofice of Grants
Management should evaluate their implementation to determine that the corrective actions have been
effectively implemented.

Finding. No. 5

Staff timesheets were not maintained by DCSC under the Administration Fund, and the Learn &
Serve Program. ArneriCorps Provision No. 23 states, in part, that "salaries and wages charged
directly to the Grant or charged to matching funds must be supported by signed time and attendance
records for each individual employee regardless of position." The employee's signature represents
acknowledgment that the hours reported reflect an accurate depiction of the hours worked.

Recommendation

We recommend that DCSC implement policies and procedures requiring that timesheets be signed
by employees and their supervisors.

Delaware Community Service Commission's Comments

DCSC disagrees with this finding because the State of Delaware requires signed timesheets for
seasonal casual (contractual) employees only. Further, DCSC has requested audit workpapers to
determine specifically which position are in question.
Inspector General
Corporation for National Service
Auditor's Response

Notwithstanding the requirements of the State of Delaware with respect to timekeeping practices,
AmeriCorps Provision No. 23 provides that "salaries and wages charged directly to the Grant or
charged to matching funds must be supported by signed time and attendance records for each
employee regardless of position." Similarly, until we have been provided an opportunity to review
the documentation in support of questioned contract services, our position on these costs remains
unchanged. A listing of missing timesheets and other requested information was provided to CNS
on December 7,2000 and to DCSC on December 18,2000.

Finding; No. 6

Financial Status Reports were not submitted on a timely basis by Delaware Center for Educational
Technology, Dover Housing Authority, Perinatal Association of Delaware and University of
Delaware. AmeriCorps Provision No. 17 stipulates that the FSRs are to be submitted within 30 days
after the end of the reporting period.

 Subrecipients                               Project No.        Quarter Ended        Days Late
Delaware Center of EducationTechnology          2597          October 3 1, 1997         13
                                                              December 3 1, 1997        17

Dover Housing Authority                      2595 & 2596      December 3 1, 1995         37
                                                              September 30, 1996         33

Perinatal Association Delaware               2596 & 2597      December 3 1, 1995           9
                                                              August 3 1, 1997            37

University of Delaware                           2996         December 3 1, 1996           8
                                                              March 3 1, 1997             23
                                                              June 30, 1997               34
                                                              September 30, 1997          48

University of Delaware                           2998         March 3 1, 1998            109
                                                              June 30, 1998               18

University of Delaware                           2499         December 3 1, 1999           9
Inspector General
Corporation for National Service
During our testing, we were unable to locate thirteen FSRs as follows:

       Subrecipient                                             No. of FSRs missing;
Delaware Center of Education Technology                                    6
Dover Housing Authority                                                    2
Perinatal Association of Delaware                                          1
University of Delaware                                                     4

In addition, out of 5 subgrantees of DCSC's ArneriCorps programs, 4 of them submitted Financial
Status Reports that did not accurately reflect cumulative Federal expenditures incurred as of March
3 1,2000 (or sooner if the grant term had ended).

Recommendation

We recommend that DCSC establish and implement procedures to ensure that its subrecipients (a)
complete FSRs properly prior to submission, (b) submit them on a timely basis, and (c) retain the
appropriate documentation.

Delaware Communitv Service Commission's Comments

DCSC seems t o disagree with this finding because it lacks the details related to Financial Status
Reports (FSRs) which were not produced during the audit. Notwithstanding, DCSC has stated that
it has implemented procedures to ensure timely submission of FSRs by its subgrantees.

Auditor's Response

DCSC's indicated remedial procedures are considered adequate. DCSC and CNS' Office of Grants
Management should evaluate their implementation to determine that the corrective actions have been
effectively implemented.

Finding No, 7

Ofice of Management and Budget (OMB) Circular A- 110, Uniform Adn~inistrativeRequirenienis
for Grants and Agreements WithInstitutions of Higher Education, Hospitals, a~ldOther Non-Profit
 Organizations, Subpart C, Section .21(b)(3) states, in part, that "Recipients' financial management
 systems shall provide effective control and accountability for all funds." The University of Delaware
 did not properly utilize its financial management system's capabilities resulting in an ineffective
 system. Once expenses are recorded in the accounting system, the grant database is "dumped" to an
 EXCEL workbook. In effect, this "dump" represents the general ledger transaction detail. It is then
 used to analyze the expenses and matching costs attributable to the grant and to make necessary
 adjustments and reclassifications.
Inspector General
Corporation for National Service
Recommendation

We recommend that DCSC establish and implement procedures to ensure that its subrecipierkts utilize
the existing financial management system effectively t o keep track of accounting records; as required
by OMB Circular A- 110.

Delaware Communitv Service Commission's Comments

DCSC has stated that the University of Delaware has implemented the necessary improvements in
its accounting procedures.

Auditor's Response

DCSCYsindicated remedial procedures are considered adequate. DCSC and CNS' Office of Grants
Management should evaluate their implementation to determine that the corrective actions have been
effectively implemented.

Finding: No. 8

Dover Housing Authority did not maintain financial information and data for five years as required
by the Grant Agreement. According t o the agreement, "contractor shall also maintain the financial
information and data used by contractor in the preparation of support of its bid or proposal.
Contractor shall retain this information for a period of five (5) years from the date services were
rendered by the Contractor." Our testing disclosed that Dover Housing Authority did not maintain
the information for five years as required.

Recommendation

We recommend that DCSC establish and implement procedures to ensure that its subrecipients retain
financial information and data required by the Grant Agreements.

Delaware Community Service Commission's Comments

DCSC disagrees with the finding because it has been able to locate documentation which reportedly
evidences programmatic activity during the operation of the ArneriCorps program, together with
some financial documentation. DCSC has, however, stated that it will develop procedures to ensure
that records are maintained for the required (by Delaware) five year period.
Inspector General
Corporation for National Service
Auditor's Response

DCSC's indicated remedial procedures are considered adequate. DCSC and CNS' Ofice of Grants
Management should evaluate their implementation to determine that the corrective actions have been
effectively implemented.

Finding No. 9

Member timesheets were not maintained by the Delaware Community Service Commission, Dover
Housing Authority, Perinatal Association of Delaware and University of Delaware. In addition, the
staff timesheets were not maintained by the Dover Housing Authority. ArneriCorps Provision No.
23 states, in part, that "time and attendance records must be signed by both the Member and by an
individual with oversight responsibilities for the Member." This provision hrther states that "salaries
and wages charged directly to the Grant or charged to matching hnds must be supported by signed
time and attendance records for each individual employee regardless of position." The Member's or
employees' signature represents acknowledgment that the hours reported reflect an accurate depiction
of the hours served for the program. A supervisor's signature indicates approval and concurrence
of the hours recorded by the Memberlemployee.

Recommendation

We recommend that DCSC establish procedures to ensure that its subrecipients (a) require timesheets
to be completed and signed by all employees/Members and their supervisors and (b) retain the
appropriate documentation.

Delaware Community Service Commission's Comments

DCSC disagrees with this finding primarily because during the past two years its subgrantee
monitoring procedures were strengthened to ensure that subgrantees require and retain signed
timesheets. DCSC also states that it has evidence that its subrecipients maintained timesheets.

Auditor's Response

The fact that DCSC recognizes that timesheets were unavailable at the time of audit and its
strengthening of procedures monitoring the maintenance of timesheets is responsive to the finding.
DCSC should monitor its subrecipients to ensure that the new control procedures are properly
implemented and remain effective.
Inspector General
Corporation for National Service
Finding No. 10

Dover Housing Authority and Perinatal Association of Delaware did not maintain Progress Reports
for all the program years. Delaware Center for Educational Technology did not indicate the
submission dates on the Progress Reports as required. AmeriCorps Provision No. 17 stipulates that
Progress Reports are to be submitted within 30 days after the end ofthe reporting period. Our testing
disclosed that University of Delaware did not submit one progress report on a timely basis and five
reports did not include submission dates.

Recommendation

We recommend that DCSC establish and implement procedures to ensure that its subrecipients submit
Progress Reports, which include submission dates, on a timely basis and retain the appropriate
documentation.

Delaware Communitv Service Commission's Comments

DCSC states that stricter internal procedures have been developed and are being implemented to
ensure that Progress Reports are submitted on a timely basis.

Auditor's Response

DCSC should ensure that the new procedures are effectively implemented and remain effective.

Finding No. 11

Delaware Center for Educational Technology, Dover Housing Authority, Perinatal Association of
Delaware and University of Delaware did not maintain documentation regarding all Members as
required by ArneriCorps Provision No. 15. This provision states, in part, that " the Grantee must
maintain verifiable records which document each Member's eligibility to serve based upon citizenship
or lawfUl permanent residency, birth date, level of educational attainment, date of high school diploma
or equivalent certificate (if attained), participation start date and end date, hours of service per week,
location of service activities and project assignment." Our testing of the Member files disclosed the
following number of instances where required documentation was not maintained:
Inspector General
Corporation for National Service

                               Number of Files Lacking
 Lacking Documentation            Documentation                           Subrecipient
 For:
 Eligibility to enroll               1 of 18 sampled        Delaware Ctr. for Educational Technology
                                   Member files not found   Dover Housing Authority
                                     2 of 22 sampled        Perinatal Association of Delaware
                                     0 of 30 sampled        University of Delaware
 Enrollment Form                     2 of 18 sampled        Delaware Ctr. for Educational Technology
                                   Member files not found   Dover Housing Authority
                                     1 of 22 sampled        Perinatal Association of Delaware
                                     0 of 30 sampled        University of Delaware
 End-of-TermIExit Form               5 of 18 sampled        Delaware Ctr. for Educational Technology
                                   Member files not found   Dover Housing Authority
                                     2 of 22 sampled        Perinatal Association of Delaware
                                     1 of 30 sampled        University of Delaware

 Member Contract                       1 of 18 sampled      Delaware Ctr. for Educational Technology
                                   Member files not found   Dover Housing Authority
                                     2 of 22 sampled        Perinatal Association of Delaware
                                     6 of 30 sampled        University of Delaware

Recommendation

We recommend that DCSC establish procedures to ensure that its subrecipients obtain and retain
documentation regarding its Members as required by AmeriCorps Provision No. 15.

Delaware Community Service Commission's Comments

DCSC did not respond to the finding. Instead, DCSC articulated its policies and procedures which
are intended to ensure that documentation related to Members is properly maintained.

Auditor's Response

The finding and recommendation, as originally presented, remain unchanged.
Inspector General
Corporation for National Service
Finding: No. 12

Delaware Center for Educational Technology and Perinatal Association of Delaware did not maintain
completed Member contracts as required by AmeriCorps Provision No.8. This paragraph states, in
part, that "the Grantee must require that Members sign contracts that stipulate the following:
        (a)     the minimum number of service hours and other requirements (as developed by the
                Program) necessary to be eligible for educational award;
        (b)     acceptable conduct;
        (c)     prohibited activities;
        (d)     requirements under the Drug-Free Workplace Act (4 1 U. S.C. $70 1 et seq.);
        (e)     suspension and termination rules;
        (f)     the specific circumstances under which a Member may be released for cause;
        (g)     the position description;
         (h)    grievance procedures."

Our testing of the Delaware Center for Educational Technology's Member contracts disclosed that
for program years 96/97 and 97/98 Member contracts did not include all of the stipulated provisions.
During our testing of the Member contracts for the Perinatal Association of Delaware, we noted that
for all four program years the Member contracts did not include the requirements under the Drug-
Free Workplace Act.

Recommendation

We recommend that DCSC establish procedures to ensure that its subrecipients incorporate all of the
required provisions into its Member contracts as required by ArneriCorps Provision No. 8.

Delaware Community Service Commission's Comments

DCSC did not respond to the finding. Instead, DCSC articulated its policies and procedures which
are intended to ensure that documentation related to Members is properly maintained.

Auditor's Response

The finding and recommendation, as originally presented, remain unchanged.
Inspector General
Corporation for National Service
Finding No. 13

Written evaluations of each Member's mid-term and end-of-term performance evaluations are
required by ArneriCorps Provision No. 8. This provision states, in part, that "the Grantee must
conduct at least a mid-term and end-of-term written evaluation for each Member's performance,
focusing on such factors as:

       a.        whether the Member has completed the required number of hours;

       b.        whether the Member has satisfactorily completed assignments; and

       c.        whether the Member has met other performance criteria that were clearly
                 communicated at the beginning of the terms of service."

Our testing of the Member files resulted in the following:

        Subrecipients                 Evaluation             No. Tested           No. Missing
Delaware Ctr of Edu. Tech.            Mid-Term                   18                   11
Delaware Ctr of Edu. Tech             End-of-Term                18                   15
Dover Housing Authority               Mid-Term               Member files not found
Dover Housing Authority               End-of-Term            Member files not found
Perinatal Assoc. of Delaware          Mid-Term                    22                  15
Perinatal Assoc. of Delaware          End-of-Term                22                  20
University of Delaware                Mid-Term                   30                  20
University of Delaware                End-of-Term                30                  20

Recommendation

We recommend that DCSC establish and implement procedures to ensure that its subrecipients
conduct and document the required mid-term and end of term evaluations of each Member's
performance.

Delaware Community Service Commission's Comments

DCSC did not respond to the finding. Instead, DCSC articulated its policies and procedures which
are intended to ensure that documentation related to Members is properly maintain.

Auditor's Response

The finding and recommendation, as originally presented, remain unchanged.
Inspector General
Corporation for National Service
Findinn No. 14

Enrollment and End-of-TermExit forms were not submitted on a timely basis by Delaware Center
of Educational Technology, Dover Housing Authority, Perinatal Association of Delaware and
University of Delaware. ArneriCorps Provision No. 17 states that "Grantee must submit Member
Enrollment Forms to the Corporation no later than 30 days after a Member is enrolled", "Grantee
must submit Member ExitEnd-of-Term Forms to the Corporation no later than 15 days after a
Member exits the program or finishes hisfher term of service." Our testing resulted in the following

                  Subrecipients                      No. of            No. of      No . End-of-
                                                     sample          Enrollment    Term Forms
                                                     tested            Forms      Submitted Late
                                                                     Submitted
                                                                        Late
                                                              - --




 Delaware Center For Education Technology               18
 Dover Housing Authority                             Member
                                                     files not
                                                      found
 Perinatal Association of Delaware                      22
 University of Delaware                          1      30

Recommendation

We recommend that DCSC establish and implement procedures to ensure that its subrecipients submit
Enrollment and End-of-TerrdExit Forms on a timely basis.

Delaware Communitv Service Commission's Comments

DCSC did not respond to the finding. Instead, DCSC articulated its policies and procedures which
are intended to ensure that documentation related to Members is properly maintain.

Auditor's Response

The finding and recommendation, as originally presented, remain unchanged.
Inspector General
Corporation for National Service
Finding; No. 15

Our testing of the living allowance indicates that Dover Housing Authority did not pay the full
amount of living allowance to five Members for a total amount of $2,979. The shortages ranged
between $33 1 and $662.

Recommendation

We recommend that DCSC establish and implement procedures to ensure that, in the future, its
subrecipients pay the correct amount of living allowances to its Members.

Delaware Community Service Commission's Comments

DCSC did not respond to the finding. Instead, DCSC articulated its policies and procedures which
are intended to ensure that payments to Members are proper.

Auditor's Response

The finding and recommendation, as originally presented, remain unchanged.

Finding; No. 16

Dover Housing Authority did not remit the interest earned as required by AmeriCorps Provision No.
27 that requires interest earned on Federal funds in excess of $250 per annum to be remitted annually
to the Department of Health and Human Services. Grantees may keep up to $250 of interest per
year to offset administrative expenses. Our testing indicates that Dover Housing Authority kept all
the interest earned.

Recommendation

We recommend that DCSC establish and implement policies to ensure that its subrecipients remit all
interest earned in excess of $250 as required by ArneriCorps Provision No. 27. We further
recommend that the Delaware Community Service Commission remit $390.95 ($157.29 for program
year 94/95 and $233.66 for program year 95/96) of interest earned to the Department of Health and
Human Services (HHS).

Delaware Community Service Commission's Comments

DCSC and Dover Housing Authority are reviewing their records to confirm whether the finding is
accurate. If so, DCSC will collect and remit any interest earned on Federal h n d s in excess of $250.
Inspector General
Corporation for National Service
Auditor's Response

CNS' Office of Grants Management should determine the appropriateness of DCSC's review of this
matter.

Except as described above, our tests of compliance with other provisions referred to in the third
paragraph of this report did not yield negative results. We considered the previously mentioned
instances of noncompliance in forming our opinion on whether Exhibit A through D is presented fairly
in all material respects, in conformity with Corporation policies and procedures, and this report does
not affect our report dated September 7, 2000, on this financial schedule.

This report is intended for the information and use of the Corporation's Ofice of the Inspector
General, as well as management of the Corporation and the Delaware Community Service
Commission and its subrecipients. However, this report is a matter of public record and its
distribution is not limited.
                                                  ~              .             ,   A
                                                      Leonard G. Birnbaum and Company   "'il  4          ~




Alexandria, Virginia
September 7, 2000
                            LEONARD       G.   BIRNBAUM            AND        COMPANY,   LLP
                                           CERTIFIED PUBLIC ACCOUNTANTS
                                                  WASHINGTON OFFICE

                                                 6285 FRANCONIA ROAD

                                                ALEXANDRIA. VA   22310-2510



                                                      (703) 922-7622

                                                   FAX: (703) 922-8256

LESLIE A LEIPER                                                                                     WASHINGTON. D.C.
LEONARD G. BIRNBAUM                                                                                SUMMIT. NEW JERSEY
DAVID SAKOFS                                                                                      LOS ALTOS, CALIFORNIA
CAROL A   SCHNEIDER                                                                               SAN DIEGO. CALIFORNIA


MEMBERS O F THE
AMERICAN INSTITUTE
    OF CPA'S




          Inspector General
          Corporation for National Service

                        W E P E N D E N T AUDITOR'S REPORT ON INTERNAL CONTROLS

          We have audited the schedule of award costs, as presented in Exhibit A through D, which summarizes
          the claimed costs of the Delaware Community Service Commission (DCSC) under the Corporation
          for National Service (Corporation) awards listed below, and have issued our report thereon dated
          September 7, 2000.

             Propram              Award Number                Award Period                    Audit Period
          Administration          94SCSDE008              Jan 14, 94 - Dec 3 1, 00       Jan 14,94 -Mar 31, 00
          AmeriCorps              94ASCDE008              Aug 1,94 - Dec 30,OO           Aug 1,94 - Mar 3 1, 00
          PDAT                    95PDSDE008              Jan 1,95 - Feb 28,00           Jan 1, 95 - Mar 31, 00
          Learn & Serve           95LCSDE002              Oct 1, 95 - Dec 31, 00         Oct 1, 95 -Mar 31, 00

          We conducted our audit in accordance with generally accepted auditing standards, and Goveriii~ien!
          Auditing Stanhrds (1994 Revision), issued by the Comptroller General of the United States. Those
          standards require that we plan and perform the audit to obtain reasonable assurance about whether
          the financial schedules are free of material misstatement.

          In planning and performing our audits of Exhibits A through D for the period January 1, 1994 to
          March 3 1, 2000, we considered the grantee's internal controls in order to determine our auditing
          procedures for the purpose of expressing our opinion on the financial schedule and not to provide
          assurance on the internal controls.

          DCSC's management is responsible for establishing and maintaining internal controls. In fulfilling
          this responsibility, estimates and judgments by management are required to assess the expected
          benefits and related costs on internal control policies and procedures. The objective of internal




                      MEMBER OF THE DIVISION FOR CPA FIRMS, PRIVATE COMPANIES PRACTICE SECTION
                                AMERICAN INSTITUTE OF CERTIFIED PUBLIC ACCOUNTANTS
Inspector General
Corporation for National Service
controls is to provide management with reasonable, but not absolute, assurance that assets are
safeguarded against loss from unauthorized use or disposition, and that transactions are executed in
accordance with management's authorization and recorded properly to permit the preparation of
financial schedules in accordance with generally accepted accounting principles. Because of inherent
limitations in any internal controls, errors or irregularities may nevertheless occur and not be detected.
Also, projection of any evaluation of the internal controls to hture periods is subject to the risk that
procedures may become inadequate because of changes in conditions or that the effectiveness of the
design and operation of policies and procedures may deteriorate.

We noted the following matters involving the internal controls that we consider to be reportable
conditions under standards established by the American Institute of Certified Public Accountants.
Reportable conditions involve matters coming to our attention relating to significant deficiencies in
the design or operation of the internal controls, that, in our judgement, could adversely affect the
entity's ability to record, possess, summarize and report financial data consistent with the assertions
of management in the financial schedules.

Finding No. 1

DCSC did not reconcile the amounts reported to the Corporation on the Financial Status Report with
the amounts reported to HHS on the Federal Cash Transaction Report.

Recommendation

We recommend that DCSC establish policies and procedures to conduct the reconciliation of the
amounts reported on Financial Status Reports to the amounts reported on the Federal Cash
Transaction Report.

Delaware Community Service Commission's Comments

DCSC has stated that it will reconcile the amounts reported to the Corporation on Financial Status
Reports with the amounts reported on Federal Cash Transaction Reports.

Auditor's Response

We recommend that CNS' OEce of Grants Management follow-up to ensure the procedures are
properly implemented.
Inspector General
Corporation for National Service
Finding No. 2

DCSC did not record some grantdamendments or the amounts in the accounting system properly.

Recommendation

We recommend that DCSC establish procedures to ensure that the grantdamendments and the fbnded
amount be properly recorded in the accounting system.

Delaware Community Service Commission's Comments

DCSC has stated that it will continue to develop necessary procedures to ensure grantslamendments
are properly recorded in the accounting system.

Auditor's Response

We recommend that CNS' Ofice of Grants Management follow-up to ensure the procedures are
properly implemented.

Finding; No.3

DCSC did not properly monitor subrecipients. Based on our discussion with various personnel at the
subrecipients sites, DCSC conducted limited reviews on subgrantees. Various site visits were
conducted by DCSC; however, although at the conclusion of the visits, handwritten comments were
provided, DCSC did not require its subrecipient to respond back to its comments. We were also
unable to determine that DCSC communicated the Corporation's PMIGPRA goals to the
subgrantees. We understand that DCSC's guidance has improved since the 98/99 program year.

Recommendation

We recommend that DCSC establish policies and procedures to improve its oversight and properly
monitor its subrecipients.

Delaware Community Service Commission's Comments

DCSC disagrees with this finding and suggests that the statements made by subrecipient staff are
probably in reference to site visits made prior to the major restructuring of DCSC's monitoring
system which took place in 1998.
Inspector General
Corporation for National Service
Auditor's Response

DCSC's suggestion as to the site visits referenced by subrecipient staff may be valid since our
inquiries were not date specific. Nonetheless, we recommend that DCSC ensure its new monitoring
procedures are properly put into place and include specific procedures to ensure adequate corrective
actions when deficiencies are noted.

Findine No.4

We substantiated the following deficiencies as previously reported in DCSC's Pre-Audit Survey
Report dated October 8, 1999:

Selection of Szibgrantees

-      DCSC did not maintain signed conflict of interest forms as required.

-       Documentation was unavailable to support grant-making decisions.

-       The subgrantee applicants' Financial Systems were not adequately assessed during the
        selection process.

-       DCSC did not advertise the availability of finds for the 1998 program year.

Administering Grant Fzinds

-       There was a lack of evidence of FSR review, including matching recalculation.

-       There was an inability to determine timeliness of FSR's.

-       DCSC did not maintain all required FSR's.

        DCSC lacked budget controls over Administrative and PDAT funds.

Evaluating and Monitoring Grants

        The extent of subgrantee monitoring efforts because of the lack of documentation could not
        be determined.

-       Review of OMB Circular A-133 reports or other audit reports from subgrantees was not
        documented.
Inspector General
Corporation for National Service
Recommendation

DCSC has taken recent actions to correct the deficiencies noted in the pre-audit survey; however, it
is too early to evaluate the results of these actions. In addition to the recent actions taken by DCSC,
we recommend the following.

Selection of Subgrantees

We recommend that non-commission Members on the review panel of the Learn and Serve program
sign conflict of interest statements. We also recommend that the "Financial Risk Management
Process" of DCSC, that includes an attachment for a "Financial Management Survey" be
implemented. DCSC should require that subgrantees submit this survey with applications for grant
funds. In addition, we recommend that Members with financial backgrounds be included on the
selection committee in order to provide greater insight into the financial management aspect of the
selection process.

Administering Grant Funds

We recommend that DCSC implement a revised web based reporting system under the Learn and
Serve Program.

E~~aluating
         and Monitoring Grants

We recommend that DCSC maintain detailed documentation supporting the results of site visits and
reviews.

We recommend that monitoring procedures for the Learn and Serve Program be implemented.

Formal program applications should be completed for each subgrantee.

Procedures for determining that Members are not performing restricted activities could be enhanced
by requiring that Members be questioned about their activities during site visits and that DCSC obtain
certifications from subgrantees that the Members are not performing restricted activities.

Procedures for the review of A-133 audit reports should state specific steps to be taken to follow-up
on corrective action plans.

Procedures should be established to verifL the accuracy of program accomplishments, to provide
evidence that progress reports were adequately reviewed and to provide feedback to the subgrantees.
Inspector General
Corporation for National Service
Delaware Community Service Commission's Comments

DCSC disagrees with these findings as it did in response to the pre-audit survey. The thrust of
DCSC's disagreement is that the findings may have been valid in the past but are not representative
of the controls in place at the time of the pre-audit survey or currently in place.

Auditor's Response

We incorporated the findings articulated in the pre-audit survey into this report because the period
covered by our audit was January 14, 1994 through March 31, 2000 and because our audit
established that the conditions which were presented in the pre-survey report did, in fact, exist during
parts of the period covered by the audit. We do acknowledge that DCSC has taken steps to
strengthen the controls which were previously cited as deficient. We recommend that DCSC and
CNS' Office of Grants Management follow-up to determine that the reported corrective actions have
been put into place and are effective.

Findings Nos. 1 through 9 set forth in our Independent Auditor's Report on Compliance dated
September 7 , 2000 are also considered findings on internal control.

Our consideration of the internal control structure would not necessarily disclose all matters in the
internal control structure that might be reportable conditions and, accordingly, would not necessarily
disclose all reportable conditions that are also considered material weaknesses.

This report is intended for the information and use of the Corporation's Ofice of the Inspector
General, as well as the management of the Corporation, DCSC and its subrecipients. However, this
report is a matter of public record and its distribution is not limited.



                                                        Leonard G. Birnbaum and Company



Alexandria, Virginia
September 2, 2000
        DELAWARE HEALTH                                                               Appendix A
        AND SOCIAL SERVICES                                                           Page 1 of 13
         Division of State
           Sewice Centers

                                                                                    Office of the Director




December 21,2000

Ms. Luise Jordan, Inspector General
Office of the Inspector General
1201 New York Avenue, N.W.
Washington, D.C. 20525

Dear Ms. Jordan:

Thank you for the opportunity to provide a response to the Office of the Inspector
General Audit of the Delaware Community Service Commission for the periods of
January 14, 1994 - March 3 1,2000. Below is our response to the draft report on the audit
of the Delaware Community Service Commission.

We have worked diligently to prepare our response and present verifying
documents/information and justifications for the "findings" and recommendations
presented by the auditing team. Although we perform all of our functions and operations
in strict compliance with federal and State of Delaware mandates and laws, we do,
however, accept responsibility for the Audit and the findings for the Division of State
Service Centers.

Response to Exhibit A:
1. Salaries and benefits questioned costs of $3 1.6 18:
   We disagree with this finding. The State of Delaware follows strict procedures to
   ensure that all employees accurately perform their hours of employment. The State of
   Delaware time verification system consists of requiring signed timesheets for
   Seasonal Casual (contractual) employees only. Timesheets are not required for State
   of Delaware Merit employees. Neither are timesheets required at the Commission
   level for federally funded positions as long as those positions are 100% funded for
   AmeriCorps, Learn & Serve etc. State procedures require time verification only when
   time off by an employee (vacation, sick, etc.) amounts to a workweek less than the
   required 37.5 hours. Currently, Commission staff signs in and out everyday, although
   no signatures are required. The Commission retains copies of all seasonal casual
   timesheets.

       Additional efforts are being implemented to further improve our time verification
       system. Staff persons which are in positions that are 100% funded for AmeriCorps,
       Learn & Serve, etc. shall be required to sign a time and attendance certification on a
       semi-annual basis. Certification forms with original signatures shall be maintained in
       a central file within the Fiscal Department.



1901   N. DUPONTP   :HWAY    NEW'CASTLE     C      - r >.
                                                        c   19720   r   TELEPHO
                                                                                    Appendix A
                                                                                    Page 2 of 13
   Contract Services questioned costs of $1,206:
   We disagree with this finding. The amount in question refers to three payments to
   Federal Express, Messenger Services, and Billie Ann Myers, consultant who assisted
   the Commission structure, etc. We have verifying documents, including the payments
   on State records, payment vouchers, and we are retrieving receipts (andlor other
   payment verification) from the vendor.

   Travel questioned costs of $12:
   We disagree with this finding. We do not have documentation to substantiate the
   finding, thus we have requested the auditor's working papers to assist us in
   determining specifically which travel costs are in question. When further information
   is obtained we will develop a more specific response.

Response to Schedule B-2:
We disagree with this finding. The Dover Housing Authority (DHA) was one of
Delaware's first AmeriCorps program. The DHA, during their AmeriCorps Program
operation, encountered staff transition including multiple Executive Directors and
Program Directors. Since their AmeriCorps Program operation, DHA has a completely
new staff. Despite the amount of time passed and these instances of staff transition, DHA
has been able to maintain program documentation consistent with federal and State of
Delaware mandates. Recent visits to DHA by DCSC staff, where program
documentation was received and reviewed, have verified this. Documentation reviewed
included progress reports, member records, payment vouchers, balance sheets, contracts,
member rosters, W-2's, 1-9's and more.

We also are attempting to retrieve the "work papers" from the DHA's portion of our
audit. These are imperative to uncovering specifics of the questioned costs. With the
work papers we shall be better able to pinpoint the costs in question, and thus retrieve and
present additional verifying documentation.

Response to Schedule B-3:
We disagree with this finding. The Perinatal Association's AmeriCorps program was the
second of Delaware's first two AmeriCorps programs. Documentation held at the
Commission level reveals that since inception, the Perinatal Association has worked
diligently to stay in compliance with state and federal mandates. The Commission has
conducted many site visits throughout the program's existence, including reviews of their
accounting system/methods by an outside accounting firm. A-1 33's have been conducted
without "findings" being present. We have requested the "working papers" from the
Perinatal's portion of our audit. These are needed to uncover specifics of the questioned
costs. With the work papers we shall be better able to pinpoint and thus present additional
verifying documentation.

Response to Exhibit C:
1. Contract Services questioned cost of $53:
   We disagree with this finding. We do not have documentation to substantiate the
   finding. Until we receive the requested work papers specifying the costs in question
                                                                                    Appendix A
                                                                                   Page 3 of 13
   we are unable to articulate a response. With the work papers we shall be better able to
   pinpoint and thus retrieve additional verifying documentation.

   Travel questioned cots of $229:
   We disagree with this finding. Consistent with State of Delaware policies, All State
   of Delaware and Commission fiscal agents and staff perform a thorough review of
   travel and per diem costs. It is our understanding that we are not held to federal per
   diem costs, and thus not in violation of such since we do in fact operate under the
   State mandated travel policies.

   Direct Costs questioned costs of $1,754:
   We disagree with this finding. As allowed under federal fiscallbudgeting procedures
   we performed a 10% budget line item adjustment. With an accumulated total budget
   of $277,735, an accumulated approved line item budget of $58,470, and an
   adjustment of $1,754 we were well within the federal 10% line item adjustment
   allowance.

Response to Exhibit D:
1. Salaries and Benefits questioned cost of $7.814:
   We disagree with this finding. As stated in our Response to Exhibit A, The State of
   Delaware follows strict procedures to ensure that all employees accurately perform
   their hours of employment. The State of Delaware time verification system consists
   of requiring signed timesheets for Seasonal Casual (contractual) employees only.
   Timesheets are not required for State of Delaware Merit employees. Neither are
   timesheets required at the Commission level for federally funded positions as long as
   those positions are 100% funded for AmeriCorps, Learn & Serve etc. State
   procedures require time verification only when time off by an employee (vacation,
   sick, etc.) amounts to a workweek less than the required 37.5 hours. Currently,
   Commission staff signs in and out everyday, although no signatures are required. The
   Commission retains copies of all seasonal casual timesheets.

2. Contract Services questioned costs of $22,597:
   We disagree with this finding. We do not have documentation to substantiate the
   finding, thus we have assumed that these questioned costs relate to the seasonal
   casual position held by the Lean & Serve Coordinator. As stated in our Response to
   Exhibit A, "The State of Delaware time verification system consists of requiring
   signed timesheets for Seasonal Casual (contractual) employees only". "The
   Commission retains copies of all seasonal casual timesheets". In addition we have
   requested the auditor's working papers to assist us in determining specifically which
   contracted services are in question. With further information at hand we would be
   better able to present a more specific response.

Response to Finding No. 1
In compliance with State and Federal mandates, and as stated in the auditors Finding No.
I, "the Delaware Community Service Commission establishe[s] appropriation codes to
track.. . Corporation funded and expended amounts". Any perceived lack of fiscal
                                                                                    Appendix A
                                                                                   Page 4 of 13
compliance documented by the auditing team has been reviewed by the Division and
Commission staff, and we feel that policies, procedures and actions taken by the
Commission reveals compliance to federal mandates. When appropriate, carryover funds
were reported to the Corporation. In an effort to simplify our procedures we require the
reconciliation of grants at the end of each program year, and report that carryover to the
Corporation. When appropriate, carryover funds are transferred to the new grant year
and established in a new appropriation and State contract.

Response to Finding No. 2
The Division of State Service Centers, under the State of Delaware employs strict
compliance to the Generally Accepted Accounting Principles (GAAP). Delaware
AmeriCorps, and its compliance to state, federal and Commission budget tracking
requirements, procedures, structures, systems etc., calls for the creation of a complex and
highly sophisticated financial management system, which we at the Division of State
Service Centers feel is employed. We have placed a high priority and focus on
consistently updatinglimproving the Commission-State financial management system.
Various improvements have been implemented and weekly meetings assist us in gauging
its effectiveness. Any perceived or documented lack of fiscal compliance by the auditing
team has been reviewed by the Division and Commission staff, and we feel that policies,
procedures and actions taken by the Commission reveals compliance to federal mandates.
Fiscal oversight and responsibilities over National Service/Commission grants are the
responsibility of a fiscal officer who has experience and established procedures in the
maintenance of federal and CNS grants. These procedures, which include tracking
expenditures against the actual budgeted grants by line item are standardized procedures
performed by the Commission fiscal agent.

Response to Finding No. 3
Although we perform all of our functions and operations in strict compliance with federal
and State of Delaware mandates and laws, we are always seeking to improve in areas
where improvement may be made. Most of our areas of improvement emphasis have
been placed on programmatic and fiscal [monitoring and] oversight. As detailed in our
Response to Finding No. 6, we have had some difficulty in ensuring that subgrantees
submit FSRs in a timely manner. Unfortunately, the Commission (State of Delaware)
FSRs come as a package. This means that if any one subgrantee submits an FSR late,
then all of the Commission FSRs will be submitted late to CNS. Stricter internal
procedures have been developed and are being implemented to ensure that Financial
Status Reports are submitted on a timely basis. Sub Grantee FSRs have been automated
through the WBRS system to streamline and expedite the collection of that data, and
Administration FSRs are prepared using Delaware Financial Management System
Reports. Hand delivery of the FSR will be used whenever practical to deliver the
document internally, saving time that may be lost through the State mail delivery process.
Delivery to the Corporation will utilize Overnight Express when necessary.
                                                                                       Appendix A
                                                                                      Page 5 of 13
Response to Finding No. 4:
Delaware AmeriCorps would not have survived had it not been for the unique
collaboration between federal, state and local entities. It has been this same structure that
allowed us the opportunity to implement additional improvement methods for the
operation of fiscal management. The Commission, as a State entity, must adhere to the
State of Delaware fiscal structure and requirements. While in most cases this creates a
system of fiscal checks and balances, it can also result in timeliness issues as all check
and balances are being performed. The Financial Cash Transaction Reports (FCTRs) are
prepared and submitted on a quarterly basis by the Department of Health and Social
Services (DHSS) Program Support Center. The FCTR is completed online through the
Internet.

The Division of State Service Centers will put additional procedures in place to remind
(between the 181h and 24"' of the last month of the quarter) the DHSS Program Support
Center prior to the deadline to ensure that reports are submitted timely. The DHSS
Program Support Center has agreed to provide DSSC with copies of the FCTRs on a
regular, on-going basis to verify compliance.

Response to Finding No. 5:
We disagree with this finding. As stated above (Response to Exhibit A ) , "the State of
Delaware follows strict procedures to ensure that all employees accurately perform their
hours of employment. Currently, the State of Delaware time verification system consists
of requiring signed timesheets for Seasonal Casual (contractual) employees only.
Timesheets are not required for State of Delaware Merit employees. Neither are
timesheets required at the Commission level for federally funded positions as long as
those positions are 100% funded for AmeriCorps, Learn & Serve etc.. State procedures
require time verification only when time off by an employee (vacation, sick, etc.)
amounts to a workweek less than the required 37.5 hours. Currently, Commission staff
signs in and out everyday, although no signatures are required. We have requested the
auditor's working papers to assist us in determining specifically which position(s) are in
question. When further information is obtained we will develop a more specific
response. In the mean time we are reviewing AmeriCorps Provision No. 23 and OMB
Circular A-87.''

Response to Finding No. 6:
We disagree with this finding. Without substantiating documentation from the audit
working papers identifying which FSRs were labeled as 'missing', coupled with the
limited amount of time available to present a response we are unable to present a detailed
response concerning each individual subgrantee. As time permits we are confident that
we would be able to demonstrate that our subgrantees comply with federal mandates
requiring the retaining of FSRs.

The Commission uses a multi-level check and balance system for preparing FSRs.
Initially, the Commission Program Officer, who deals directly with the programs, reviews
and verifies programmatic FSRs through the use of a computer program implemented by
an outside accounting agency. They are checked against Request for Reimbursements for
                                                                                  Appendix A
                                                                                 Page 6 of 13
that quarter as well as a balance sheet. Those FSRs are then forwarded to the
Commission/State Fiscal Agent who reviews and prepares the programmatic and
Commission FSRs. Finally, the FSRs are submitted to the Controller, who oversees all
FSRs, for submittal to CNS. Although, the multi-level FSR review process performed by
the CommissiordState of Delaware creates an advantageous system of checks and
balances, it initially may have created some timeliness issues. If a subgrantee FSR was
not received by the Commission a in a timely fashion, a halt was put on the submittal of
all FSRs to the next level.

Initially, the primary challenge faced by the Delaware Community Service Commission
had to do with the opposing structures and fiscal reporting requirements of the State of
Delaware and the Corporation for National Service. The State of Delaware uses a draw-
down method whereas CNS requires a forecast method for expenditures. This had created
some complications for the Delaware Community Service Commission and the State of
Delaware. With the addition of the Corporation for National Service's Web-Based
Reporting System, this challenge has been overcome. It allows the programs to submit
their complete (forecasted) expenditures, while the State can submit to CNS their drawn-
dowdpaid out expenditures. In addition, the Commission has implemented a system,
which allows the State fiscal agents to verify FSRs using the forecast method. The
Delaware Community Service Commission continues to place a great emphasis on
subgrantees to submit their FSRs in a timely manner, and the importance of said
timeliness.

The Commission has been implementing various policies and procedures to eliminate as
an issue for subgrantees, their late submittal of FSRs. All programs are presented with
written information that clearly details the Commission's expectation for program
compliance and reporting. As a pre-applicant, programslagencies are presented with
program compliance and reporting expectations within the Application Guidelines. Once
programs are selected, they are presented with a contract that outlines these same
expectations, including due dates. Within the first quarter (at the Program Director's
Orientation), programs receive a DCSC Program Director's reference Manual. The
manual outlines all compliance and reporting expectations, including due dates. Finally,
programs receive a copy of the DCSC Monitoring Tool, which presents in checklist form,
all of the compliance issues, reporting expectations, and requirements.

Finally, we send all programs via email andlor fax, FSR due date reminder memos. These
memos go out 5-7 days prior to the due date. Telephone calls (or emails in certain
situations) are made to subgrantees if FSRs are not received on the due date, and letters
are sent to subgrantees if they are 5 days late.

We shall continue to implement additional strategies to ensure the timeliness of
subgrantee FSRs. We shall create standard policies, which shall mandate explicit punitive
actions against subgrantees who consistently submit late FSRs. These actions may
include reduced funding or loss of funding. We also have incorporated a process, which
entails a more detailed review of grant applicants' financial management systems.
Finally, we have incorporated as policy, with the advice of the auditors, that there must
                                                                                    Appendix A
                                                                                    Page 7 of 13
be at least one accountant or other qualified fiscal expert serving on the Grant Applicant
Review Panel.

This is an area where we shall continue to seek peer advice, best practices, technical
assistance and CNS assistance. We anticipate that for the remainder of the 2000 program
year, and most assuredly by the 2001 Program Year we shall have systems, policies and
procedures in place that shall allow us (and our subgrantees) to submit FSRs in a timely
fashion.

Response to Finding No 7:
The University of Delaware has been a strong supporter and subgrantee for the
AmeriCorps program. Their program has won numerous accolades and consistently
recruits high-quality, enthusiastic members who truly "Gets Things Done". Commission
sites visits have confirmed the tone implied through this audit report's non-listing of
questioned costs, which is that the University utilizes a highly effective and accountable
fiscal management system. The University has implemented improvements in their
accounting procedures, which will enable them to correctleliminate the lag time in
establishing proper distribution of state and federal funds into match accounts. Current
contracts with members reflect the correct ratio of charges of state and federal funds to
match accounts.

The Delaware Community Service Commission has established and implemented
procedures and practices to ensure that its subgrantees utilize effective financial
management systems to keep track of accounting records, as required by OMB Circular
A- 110. All programs are presented with written information that clearly details the
Commission's expectation for programs' compliance and reporting, as mandated by
OMB Circular A- 1 10. As a pre-applicant, programslagencies are presented with program
compliance and reporting expectations within the Application Guidelines which clearly
outlines the requirements under OMB Circular A- 1 10. Technical Assistance meetings are
held where Commission staff 'walks through' the OMB requirements and expectations.
Within the first quarter of an agency being selected as a subgrantee, subgrantees receive a
fiscal training held by an outside accounting agency, where OMB Circulars are presented
and explained. Finally, programs receive a copy of the DCSC Monitoring Tool, which
presents in checklist form, fiscal (and programmatic) compliance issues, reporting
expectations, and requirements. Included in this checklist are the requirements mandated
by the OMB Circulars. At least once per year subgrantees receive a records review site
visit. This site visit performed by the Commission Program Officer, Training Officer and
Fiscal Officer includes a daylong review of fiscal policies, procedures, practices and
compliance issues. All subgrantees must respond in writing to any "findings" as a result
of site visits, and compliance is confirmed at a separate site visit.

Response to Finding No 8:
We disagree with this finding. The Dover Housing Authority (DHA) was one of
Delaware's first AmeriCorps program. The DHA, during their AmeriCorps Program
operation, encountered staff transition including multiple Executive Directors and
Program Directors. Since their AmeriCorps Program operation, DHA has a completely
                                                                                   Appendix A
                                                                                   Page 8 of 13
new staff. Despite the amount of time passed and these instances of staff transition, DHA
has been able to maintain program documentation consistent with federal and State of
Delaware mandates. Recent visits to DHA by DCSC staff, where program
documentation was received and reviewed, have verified this. Documentation reviewed
included member records, payment vouchers, balance sheets, contracts, W-2's, 1-9's and
more.

The Delaware Community Service Commission goes through great measures to ensure
that subgrantees retain financial (and programmatic) information and data required by
grant agreements. Although, the federal mandates have established that financial and
programmatic information and data should be retained for four years, the State of
Delaware requires that agencies retain this information for five years. Various actions are
taken at the Commission level to ensure that agencies are aware of this requirement. All
subgrantees are required to sign a State of Delaware contract, which mandates that all
records, be retained for five years. As a new practice we shall also create procedures that
include an annual letter being sent to past subgrantees, which shall inform them to retain
their records for the remainder of the five-year period.

Response to Finding No. 9:
We disagree with this finding. The Commission, as a part of its subgrantee site visit
protocol reviews documented member timesheets in an effort to verify members' benefits
eligibility. Thus, we disagree with finding number 9, without AmeriCorps Provision
interpretation from CNS, that DCSC was in violation of Provision 23. Provision 23 does
state in part that "Grantee(s) must keep time and attendance records on all AmeriCorps
Members." Throughout the Provisions there is an interchangeable use between grantee,
subgrantee and program. It is our understanding that Commissions are required to verify
this information on an audit level type of verification, but we are unaware that
Commissions are required to maintain and keep on file "all" member timesheets and
attendance records. We shall consult with CNS officials and if such a requirement is
applicable we shall immediately request all member timesheets and attendance records,
and implement a procedure of verifying these documents.

The Delaware Community Service Commission incorporates strict measures to ensure
that subgrantees require and retain signed timesheets. Subgrantee monitoring and review
is the source of this insurance. The Delaware Community Service Commission has a very
sound and thorough monitoring system and controls. Over the past two years a lot of
effort and great detail has been placed on revising monitoring procedures.

In 1998 a complete overhaul of the monitoring system was performed. It was completely
revised to include an updated monitoring tool, standardized scheduled site visits, and in-
house quarterly desk audits. These processes and procedures were recorded in the
Commission Policies and Procedures manual. Included within the monitoring tool are
check-offs, which states the requirement that all subgrantees must have on file, member
timesheets, which are signed by the member and their supervisor. Site visits performed
by Commission staff includes a review of a sample of timesheets to ensure compliance to
this requirement.
                                                                                 Appendix A
                                                                                 Page 9 of 13

Dover Housing Authority has stated that they maintained member timesheets, although
they were unable to locate them. However they have supplied other verifying documents
including signed member progress forms which state the members' hours served and
remaining. The Perinatal Association of Delaware and University of Delaware
maintained member timesheets as documented by Commission site visits and mandatory
submittal of such records to the Commission.

Response to Finding No 10:
Very exhaustive efforts are taken at the Commission level to ensure that our subgrantees
submit and retain accurate Progress Reports on a timely basis. All programs are presented
with written information that clearly details the Commission's expectation for program
compliance and reporting. As a pre-applicant, programslagencies are presented with
program compliance and reporting expectations within the Application Guidelines. Once
programs are selected, they are presented with a contract that outlines these same
expectations, including due dates. Within the first quarter (at the Program Director's
Orientation), programs receive a DCSC Program Director's reference Manual. The
manual outlines all compliance and reporting expectations, including due dates. Finally,
programs receive a copy of the DCSC Monitoring Tool, which presents in checklist form,
all of the compliance issues, reporting expectations, and requirements.

In addition, stricter internal procedures have been developed and are being implemented
to ensure that Progress Reports are submitted on a timely basis. Subgrantee Progress
Reports have been automated through the Web Based Reporting System to streamline
and expedite the collection, review, feedback and forwarding of that data.

Response to Finding No 11 :
As a pre-applicant, programslagencies are presented with program compliance and
reporting expectations within the Application Guidelines. Technical AssistanceIPre-Bid
Meetings are held to 'walk through' requirements and mandates. Once programs are
selected, they are presented with a contract that outlines these same expectations.
Included in the contract, which is signed by the subgrantee, is a copy of the AmeriCorps
Provisions. Within the first quarter (at a Program Director's Orientation), programs
receive a DCSC Program Director's reference Manual. The manual outlines all
compliance and reporting expectations, including due dates. AmeriCorps Provisions are
a part of that manual. In addition, as a part of the Program Director's Orientation
Commission staff provides training on the AmeriCorps Provisions, including
requirements pertaining to member files and documentation. Finally, programs receive a
copy of the DCSC Monitoring Tool, which presents in checklist form, all of the
compliance issues, reporting expectations, and requirements.

The Commission, as a part of its subgrantee site visit protocol reviews documented
member information and files including eligibility to enroll documentation, enrollment
and exit forms, member contracts, and member timesheets. All subgrantees must respond
in writing to any "findings" as a result of site visits, and compliance is confirmed at a
separate site visit.
                                                                                   Appendix A
                                                                                  Page 10 of 13

Response to Finding No 12:
As stated previously, the Delaware Community Service Commission incorporates strict
measures to ensure subgrantee compliance with state and federal requirements.
Subgrantee monitoring and review is the source of this insurance. Over the past two years
a lot of effort and great detail has been placed on revising monitoring procedures. In 1998
a complete overhaul of the monitoring system was performed. It was completely revised
to include an updated monitoring tool, standardized scheduled site visits, and in-house
quarterly desk audits. Part of the process entailed in revising the site visit monitoring
tool/checklist was to scan the AmeriCorps Provisions into one computer file. A blank
chartltable was then created where the individual Provision requirements were placed
into separatelindividual spaces. Included in this monitoring checklist are explicit
references to the requirements of member contracts and the required information to be
included therein, including service hours, acceptable conduct, prohibited activities, Drug
Free Workplace Act requirements, suspension rules, member release rules, position
description requirements, and grievance procedures. Compliance with each one of these
requirements is verified at the on site visit by reviewing samples of member files,
including their member contracts. All subgrantees must respond in writing to any
"findings" as a result of site visits, and compliance is confirmed at a separate site visit.

Response to Finding No 13:
As stated throughout this document, strict monitoring procedures are followed to ensure
subgrantee compliance with state and federal mandates. The Delaware Community
Service Commission Monitoring Tool/Checklist is the foundation to our on site
monitoring system. Included in the monitoring checklist are explicit references to the
requirements of member contracts and the required information to be included therein,
including the performance of mid and end-of-term member evaluations. Compliance with
these requirements is verified at the on site visit by reviewing samples of member files.
All subgrantees must respond in writing to any "findings" as a result of site visits, and
compliance is confirmed at a separate site visit.

Response to Finding No 14:
Because the timely submittal of enrollment and exit forms are important to a member's
successful enrollment, service and benefits, the Delaware Community Service
Commission employs strict internal procedures to ensure that enrollment and exit forms
are submitted on a timely basis. All Program Directors are made aware of the importance
of timeliness for enrollment and exit forms. They are provided with this information as a
part of their orientation, where each form is presented and explained. The Directors are
then given an opportunity to complete exercises on the proper completion of enrollment
and exit forms.

In addition, enrollment and exit forms have been automated through the Web Based
Reporting System to streamline and expedite the collection, review, feedback and
forwarding of that data.
                                                                                 Appendix A
                                                                                Page 1 1 of 13
Response to Finding No 15:
The Delaware Community Service Commission has implemented procedures to ensure
that subgrantees pay the correct amount of living allowance to its members. Monthly
Requests for Reimbursements are checked for their accuracy against budgeted and
allowable expenditures. In addition, Commission staff, during on-site visits to
subgrantees interviews a sample of members. Part of the interview process for members
is for staff to question members concerning the receipt of their living allowance.
Members are given the opportunity to express any concerns that they may have
concerning their living allowance.

Response to Finding No 16:
After review of their past records DHA has acknowledged that they may have neglected
to return the excess interest as required by AmeriCorps Provision No. 27. DHA and the
Commission are reviewing the audit information to confirm this.

The Delaware Community Service Commission reconciles grants at the end of each grant
year. As a part of this reconciliation process the Commission shall review interest
reported, earned and remitted (if appropriate) by subgrantees to the Department of Health
and Social Services. The review, which shall occur during and at the conclusion of the
grant year, shall consist of an analysis and reconciliation of financial documents and
reports submitted to the Commission. Any interest earned on federal funds in excess of
$250 per annum will be collected and remitted to the Department of Health and Social
Services.

Response to Internal Controls Finding No. 1 :
As stated previously, the unique collaboration between the Commission and the State of
Delaware, although advantageous for its checks and balances, may have created
additional complexities in the past, as the Commission and AmeriCorps became the solid
entities that they are today.

Although the DHSS Program Support Center prepares the Federal Cash Transaction
Reports (FCTRs), the Division of State Service Centers will reconcile the amounts
reported to the Corporation in the Financial Status Reports with the amounts reported on
the Federal Cash Transaction Report. As noted in Finding No. 4, the DHSS Program
Support Center shall provide FCTRs on a quarterly basis. DSSC will then reconcile the
FCTRs with the amounts reported on the FSR.

Response to Internal Controls Finding No. 2:
As stated previously (in Response to Finding No. 2), "The Division of State Service
Centers, under the State of Delaware employs strict compliance to the Generally
Accepted Accounting Principles (GAAP). Delaware AmeriCorps, and its compliance to
state, federal and Commission budget tracking requirements, procedures, structures,
systems etc., calls for the creation of a complex and highly sophisticated financial
management system, which we at the Division of State Service Centers feel is employed.
We have placed a high priority and focus on consistently updatinghmproving the
Commission-State financial management system. Various improvements have been
                                                                                    Appendix A
                                                                                  Page 12 of 13
implemented and weekly meetings assist us in gauging its effectiveness. Any perceived
or documented lack of fiscal compliance by the auditing team has been reviewed by the
Division and Commission staff, and we feel that policies, procedures and actions taken
by the Commission reveals compliance to federal mandates. Fiscal oversight and
responsibilities over National Service1Commission grants are the responsibility of a fiscal
officer who has experience and established procedures in the maintenance of federal and
CNS grants. These procedures, which include tracking expenditures against the actual
budgeted grants by line item are standardized procedures performed by the Commission
fiscal agent".

A request has been made to obtain the auditor's working papers to provide more specific
information. The Division of State Service Centers tracks grantslamendments utilizing
appropriations, reporting categories, purchase orders and financial reports. DSSC has and
will continue to develop necessary procedures to ensure grantslamendments are properly
recorded in the accounting system. All grants and amendments, once received by
Commission staff, are required to be forwarded to the fiscal officer accompanied by a
cover memo explaining the details of the document(s).

Response to Internal Controls Finding No. 3:
We disagree with this finding. The Delaware Community Service Commission
incorporates strict measures to ensure subgrantee compliance with state and federal
requirements. Subgrantee monitoring and review is the source of this insurance. The
Delaware Community Service Commission has a very sound and thorough monitoring
system and controls. Over the past two years a lot of effort and great detail has been
placed on revising monitoring procedures. All current Commission programmatic staff
are new since 1998, with two of three staff persons having been in their positions for less
than a year. Any discussions that the audit team had with current Commission staff was
referenced to past monitoringlsite visits. Although documentation revealed detailed
monitoring visits, complete with feedback, current staff could only personally verify what
efforts have been taken since their coming on board.

In 1998 a complete overhaul of the monitoring system was performed. It was completely
revised to include an updated monitoring tool, standardized scheduled site visits, and in-
house quarterly desk audits. These processes and procedures were recorded in the
Commission Policies and Procedures manual. Included in these policies is a requirement
that all subgrantees must respond in writing to any "findings" as a result of site visits.
Our monitoring system is quite involved and complex and takes time to learn, but as
anticipated site visits have been performed and documented. We further anticipate that
any challenges that we may have encountered in the past have already been remedied and
maintained, and shall continue to be maintained as staff transitions occurs.

Response to Internal Controls Finding No. 4:
We disagree with this statement as provided for in our Response to the Pre Audit Survey.
                                                                                  Appendix A
                                                                                 Page 13 of 13
While the process has not been easy, we at the Division of State Service Centers have
found it very informative. Much like the Corporation for National Service, this is new
territory for us and we have faced a steep learning curve these past few years as we
implement the AmeriCorps program. I have instructed my staff to treat this as a learning
tool that is providing clearly articulated direction on how the grant funding should be
handled. We have used this experience as an opportunity to learn, grow and improve our
systems. As was noted in the report, we have already changed some of our procedures for
the better and we intend to implement additional policies to address the issues raised by
the audit.

As informative as we have found this experience, we would like to express our concern
for the difficulty placed before us and our subgrantees in presenting a response to any
findings, due to the policy of disallowing audit "working papers" to be made available to
us. We have made every attempt to answer any charge against us, but it has been an
extremely arduous task to present clear and concise justifications (including verifying
documents) when we are presented with general "schedules" of questioned costs covering
a four to five year period, which fail to specify which costs specifically are in question.

Our Division prides itself on working closely with our partners in the community. We
look forward to a continued relationship with the Office of the Inspector General and the
Corporation for National Service.




Anne Farley
Director
Division of State Service Centers
                                                          CORPORATION                                     Appendix B
                                                           FOR NATIONAL
                                                                                                          Page 1 of 3



 MEMORANDUM

 TO:

  THRU:
                                                     I



  FROM :                             /
                      Deborah R Jospin, Director, AmeriCorp
                      Bruce H. Cline, Director, Grants Management&--
                                                                          d
  DATE:               December 2 1,2000

  SUBJECT:            Response to OIG Draft Audit Report 01-05: Audit of Corporationfor National
                      and Community Service Grant Numbers 94SCSDE008, 94ASCDE008,
                      95PDSDE008, and 95LCSDE002, Awarded to Delaware Community Service
                      Commission


  We have reviewed the draft audit report of the Delaware Community Service Commission
  grants. Due to the limited timeframe for response, our comments are primarily based on
  information contained in the report and we have not yet conducted a comprehensive review nor
  analyzed documentation from the Delaware Commission supporting the questioned costs.
  Therefore, our comments are brief and do not address every finding. We will respond to all
  findings and recommendations when the audit is issued. We have contacted the Commission and
  they indicate they have documentation on many of the questioned costs that they will provide to
  the Corporation.

  We also note that the draft report generally did not provide sufficient information related to the
  findings to allow the Corporation to agree or disagree at this time. In many cases, we will need
  to review the work papers supporting the finding before we can determine appropriate corrective
  action. We do have the following preliminary comments on some of the findings and questioned
  costs. The following comments also reflect some of the conversations we have had to date with
  the Commission concerning the audit.

  The auditors questioned costs related to stipends paid to some ArneriCorps members for which
  timesheets were not readily available in the files of the subgrantee. We requested the work
  papers from the auditors to identify the specific members in question in order to track them
  through the SPAN system. We have found enrollment and end-of-term forms for 17 of the 18
  members in question. They did serve in the program, successfully completed their terms of
  service and are entitled to the stipend. In addition, the Delaware Commission has informed us
  that they are reviewing documentation that has been retrieved from Dover Housing Authority
  files that include member records, enrollment and end-of-term forms and payment vouchers.
  Therefore, it is possible that many of these costs will be allowed.




NATIONAL SERVICE: GETTING THINGS DONE                                1201 New York Avenue, N.W. Washington, D.C. 20525
hericorps   Learn and Sen~eAmerica   lVationalSenior Senice Corps    telephone: 202-606-5000 website: www.nationalservice.org
                                                                                   Appendix B
                                                                                    Page 2 of 3
Finding #3: DCSC did not submit Financial Status Reports (FSRs) of Administration,
Professional Development and Training Funds on a timely basis, as stipulated in AmeriCorps
Provision No. 17.

Response: The Corporation agrees that some FSRs were submitted late and the Delaware
Commission has indicated that it is developing stricter internal procedures to address the finding.

Finding #4 : DCSC did not submit Financial Cash Transaction Reports (FCTRs) on a timely
basis. Our review of FCTRs disclosed that 4 out of 25 reports were submitted after the due
dates.

Response: The Corporation agrees that 4 out of 25 reports were submitted late. However, the
draft report did not provide sufficient information to determine how late the reports were
submitted. The FCTR is submitted to HHS and HHS has its own procedures for suspending a
late account. We will need to review the work papers before we determine appropriate
corrective action. Conversations with Delaware Commission staff revealed that internal state
fiscal processes may contribute to a lack of timeliness and they are revising their procedures to
address the finding.

Finding #8: Dover Housing Authority did not maintain financial information and data for five
years as required by the Grant Agreement.

Response: The Delaware Commission has indicated to the Corporation that financial
information and data were maintained, but were not readily available at the time of the audit.
Commission staff has since visited the Housing Authority and reviewed much of the
documentation. However, the information provided in the draft report was not sufficient enough
for the Corporation or the Commission to respond in depth at this time. We will need to review
the work papers related to the finding and gather additional documentation before responding.

Finding #9: Member timesheets were not maintained by the Delaware Community Service
Commission, Dover Housing Authority, Perinatal Association of Delaware and University of
Delaware. In addition, the staff timesheets were not maintained by the Dover Housing
Authority.

Response: We cannot agree or disagree with the specific finding at this time related to the sub-
grantees. However, we want to clarify Corporation grant provisions. The Corporation
provisions do not require that the Commission maintain member timesheets. It is a sub-grantee
program responsibility to maintain member timesheets. The Commission must monitor sub-
grantees to ensure they are maintaining proper documentation. The Delaware Commission has
indicated that its policies and procedures describe sub-grantee responsibilities related to
timesheets and that the Commission's monitoring tools require Commission staff to review
timesheets on site visits to ensure compliance with the requirement. The Corporation will review
Commission procedures and address the finding during the audit resolution process.
                                                                                        Appendix B
                                                                                     Page 3 of 3
Finding #lo: Dover Housing authority and Perinatal Association of Delaware did not maintain
progress reports for all of the program years.

Response: This is another finding for which insufficient information was provided in the audit
report for the Corporation to respond at this time. We will need to review the work papers and
other documentation from the Commission to determine the extent of non-compliance before
responding.

Finding #11: The Delaware Center for Educational Technology, Dover Housing Authority,
Perinatal Association of Delaware and the University of Delaware did not maintain member
documentation as required by the AmeriCorps Provision No. 15.

Response: The Corporation understands that the member documentation exists, but was not
readily available at the time of the audit. In addition, as described above, the Corporation has
determined that member enrollment and end-of-term forms were provided to the Corporation.
The Commission is working with its sub-grantees to retrieve additional supporting
documentation such as payroll records, W-2 forms, attendance schedules, training rosters, and
other documentation to support maintenance of appropriate records. This supporting
documentation, along with information in SPAN, will be reviewed and analyzed during the
formal audit resolution process to determine if adequate documentation was maintained on
members.

Finding #15: ~ e s t i nof
                        i the living allowance indicates that the Dover Housing Authority did not
pay the full amount of the living allowance to five members for a total amount of $2,979.

Response: The information in the draft report was insufficient for the Corporation to respond at
this time. We can not determine the accuracy of the finding without reviewing the auditors
workpapers, and contacting the Commission to determine whether these members were
temporarily suspended or had some other personnel action pending that would change the
amount of the living allowance paid to them. We will respond when we receive this additional
information and can determine what, if any, appropriate corrective action is needed.
                                                                                      Appendix C
                            Auditor's Response to Comments by
                      Corporation for National and Community Service

By memorandum dated December 21,2000, the Corporation provided comments resulting from what
it described as a less than comprehensive review of the report or documents provided by the
Delaware Commission supporting questioned costs.

The memorandum notes that the audit questioned costs related to stipends paid to some ArneriCorps
Members for which timesheets were not readily available in the files of the subgrantee. The
Corporation states that it found enrollment and end-of-term forms for 17 of the 18 Members in
question by tracking them through its education benefits trust fund's database. The Corporation states
that the Members did serve in the program, successfilly completed their terms of service and are
entitled to the stipend. Since the Corporation makes this latter statement without justification or
substantiation, we can only conclude that the Corporation reached this conclusion solely on the
strength of the enrollment and end-of-term forms being found within the SPAN system. Without
significant hrther corroboration and substantiation, the existence of enrollment and end-of-term
forms proves nothing. To suggest that such documents are dispositive evidence of service in the
program and successfil completion of terms of service is an unsupportable leap of logic.

The balance of the Corporation's comments generally either agreed with the findings of the report
or expressed the view that insufficient details were presented in the report for the Corporation to
agree or disagree with the finding.
